<html>
<title> - US-VISIT--A DOWN PAYMENT ON HOMELAND SECURITY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                       US-VISIT--A DOWN PAYMENT 
                          ON HOMELAND SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                      BORDER SECURITY, AND CLAIMS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 18, 2004

                               __________

                             Serial No. 77

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary


                                 ______

92-616              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
WILLIAM L. JENKINS, Tennessee        ZOE LOFGREN, California
CHRIS CANNON, Utah                   SHEILA JACKSON LEE, Texas
SPENCER BACHUS, Alabama              MAXINE WATERS, California
JOHN N. HOSTETTLER, Indiana          MARTIN T. MEEHAN, Massachusetts
MARK GREEN, Wisconsin                WILLIAM D. DELAHUNT, Massachusetts
RIC KELLER, Florida                  ROBERT WEXLER, Florida
MELISSA A. HART, Pennsylvania        TAMMY BALDWIN, Wisconsin
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana                  ADAM B. SCHIFF, California
J. RANDY FORBES, Virginia            LINDA T. SANCHEZ, California
STEVE KING, Iowa
JOHN R. CARTER, Texas
TOM FEENEY, Florida
MARSHA BLACKBURN, Tennessee

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Immigration, Border Security, and Claims

                 JOHN N. HOSTETTLER, Indiana, Chairman

JEFF FLAKE, Arizona                  SHEILA JACKSON LEE, Texas
MARSHA BLACKBURN, Tennessee          LINDA T. SANCHEZ, California
LAMAR SMITH, Texas                   ZOE LOFGREN, California
ELTON GALLEGLY, California           HOWARD L. BERMAN, California
CHRIS CANNON, Utah                   JOHN CONYERS, Jr., Michigan
STEVE KING, Iowa
MELISSA A. HART, Pennsylvania

                     George Fishman, Chief Counsel

                   Art Arthur, Full Committee Counsel

                        Luke Bellocchi, Counsel

                  Cindy Blackston, Professional Staff

                   Nolan Rappaport, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             MARCH 18, 2004

                           OPENING STATEMENT

                                                                   Page
The Honorable John N. Hostettler, a Representative in Congress 
  From the State of Indiana, and Chairman, Subcommittee on 
  Immigration, Border Security, and Claims.......................     1
The Honorable Lamar Smith, a Representative in Congress From the 
  State of Texas.................................................     2
The Honorable Howard L. Berman, a Representative in Congress From 
  the State of California........................................     3
The Honorable Steve King, a Representative in Congress From the 
  State of Iowa..................................................     3
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Immigration, Border Security, and Claims.......................    31

                               WITNESSES

Mr. Robert M. Jacksta, Executive Director, Border Security and 
  Facilitation, Office of Field Operations, U.S. Customs and 
  Border Protection, U.S. Department of Homeland Security
  Oral Testimony.................................................     5
  Prepared Statement.............................................     7
Mr. Robert A. Mocny, Deputy Director, US-VISIT Office, U.S. 
  Department of Homeland Security
  Oral Testimony.................................................     8
  Prepared Statement.............................................    10
Mr. Alfonso Martinez-Fonts, Jr., Special Assistant to the 
  Secretary for the Private Sector, U.S. Department of Homeland 
  Security
  Oral Testimony.................................................    17
  Prepared Statement.............................................    18
Mr. Randolph C. Hite, Director, Information Technology 
  Architecture and Systems Issues, U.S. General Accounting Office
  Oral Testimony.................................................    20
  Prepared Statement.............................................    22

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress From the State of Texas, and Ranking 
  Member, Subcommittee on Immigration, Border Security, and 
  Claims.........................................................    49
Prepared Statement of the Honorable Steve King, a Representative 
  in Congress From the State of Iowa.............................    50
Prepared Statement of the Honorable Linda Sanchez, a 
  Representative in Congress From the State of California........    50
Prepared Statement submitted by the Travel Business Roundtable...    52
Prepared Statement submitted by the Travel Industry Association 
  of America.....................................................    55
Prepared Statement by the U.S. Chamber of Commerce...............    57

 
                       US-VISIT--A DOWN PAYMENT 
                          ON HOMELAND SECURITY

                              ----------                              


                        THURSDAY, MARCH 18, 2004

                  House of Representatives,
                       Subcommittee on Immigration,
                       Border Security, and Claims,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
Room 2141, Rayburn House Office Building, Hon. John N. 
Hostettler (Chair of the Subcommittee) presiding.
    Mr. Hostettler. The Subcommittee will come to order.
    Today, the Subcommittee on Immigration, Border Security, 
and Claims will examine the Department of Homeland Security's 
new capabilities in the entry inspection of foreign travelers 
into the U.S. under the United States Visitor and Immigrant 
Status Indicator Technology--or US-VISIT--program and review 
its progress in meeting its statutory deadlines. The 
Subcommittee will also examine how US-VISIT has worked to 
prevent and deter alien criminals, terrorists, and immigration 
law violators from entering the United States while avoiding 
delays for legitimate travelers.
    With the recent terrorist bombings in Spain only a week 
ago, I am reminded of the horrible tragedy of 9/11 in our own 
country. Preventing and deterring terrorism in the U.S. lies at 
the very heart of why we have instituted the US-VISIT program 
and why we need to continue strengthening and improving it.
    Just as the terrorists arrested for the Madrid bombings are 
not natives of Spain, it is often noted that all of the 9/11 
hijackers were temporary visitors who came to this country with 
visas.
    When DHS met its statutory deadlines to improve the process 
this past December, US-VISIT fused information from airline 
passenger manifests, criminal records, State Department visa 
records, and immigration data systems so that guests entering 
our country are screened in both a more effective and efficient 
way.
    US-VISIT has already proven its effectiveness in capturing 
numerous criminal aliens attempting to reenter the U.S. In 
January, US-VISIT detected a convicted Peruvian cocaine 
trafficker who has been at large since 1984 after escaping from 
prison. An El Salvadoran with an outstanding arrest warrant for 
a DUI hit-and-run homicide conviction was also caught by US-
VISIT, even though he had previously used a false identity to 
successfully reenter the U.S.
    These examples also demonstrate the efficiencies gained 
from the newly integrated watchlist systems. Now foreign 
travelers are questioned at the ports of entry while scanning 
their fingerprints and having their photos taken in the same 
place that they were screened before.
    Through improved systems techniques, multiple databases are 
checked in a few seconds, including the IDENT fingerprint 
records. Inspectors are able to screen applicants for entry in 
a thorough manner without a discernable increase in waiting 
times.
    This is of significant benefit to private sector trade and 
tourism because efficient handling of people and cargo at our 
borders is very important to trade and tourism. While some 
foretold of extensive waiting lines, chaotic inspections, and 
unprecedented invasions of privacy, none have come to pass.
    What have the American people gained with multi-million-
dollar investment, one might ask? Return to the bombing in 
Madrid and think of how this tragedy will damage Spain's 
tourist industry and potentially its entire economy as a whole, 
just as the U.S. is still recovering from the economic damage 
of 9/11. As Spain has no equivalent to US-VISIT, how will the 
Spanish Government reassure those people who might be 
considering a vacation in Spain this summer?
    To use a private sector term, one might say US-VISIT is a 
``down payment'' on building a secure border--one that deters 
or prevents terrorist attacks on the U.S. and at the same time 
assists the apprehension of criminals and immigration 
violators. These are significant benefits for a substantially 
small investment.
    The first stage of implementing this long-awaited entry-
exit system was put into effect at the beginning of this year. 
Although there was a law enacted in 1996 that required the 
development of an entry-exit alien screening system, no 
executive agency made discernable progress on this mandate 
until the Department of Homeland Security, or DHS, took charge. 
The September 11th attacks and the hard deadline set by the 
Data Management Improvement Act, authored by my colleague Mr. 
Lamar Smith, also provided impetus for DHS to finally make US-
VISIT a reality.
    Our guests here today include some of the DHS architects of 
US-VISIT. Gentlemen, I must commend you on completing the first 
stage of this gargantuan task of putting the US-VISIT system 
together on time and within the 1 year the Department of 
Homeland Security has actually been in existence. Your 
incredible accomplishment provides inspiration for the 
employees of your new agency, and I invite you to present your 
views on the effectiveness, efficiencies, and private sector 
benefits of US-VISIT.
    At this time, I would like to recognize the gentleman from 
Texas for an opening statement.
    Mr. Smith. Thank you, Mr. Chairman, and I'll be brief.
    First of all, thank you for the mention. I do have a 
personal interest in this subject, and it really coincides 
with, once again, an opportunity to thank you for taking the 
initiative, as you have so often, on holding a hearing on such 
important issues as this one.
    I also want to acknowledge a long-time friend from San 
Antonio, Al Martinez-Fonts, who is a witness today. And having 
said that, I also have to apologize in advance. I have a markup 
with the Homeland Security Committee that I have to go to right 
now, so I will not be able to stay. But I just wanted to 
recognize Al, and thank you, Mr. Chairman, and I'll yield back.
    Mr. Hostettler. The gentleman's time has expired.
    The Chair recognizes the gentleman from California for an 
opening statement.
    Mr. Berman. Well, thank you, Mr. Chairman. Our Ranking 
Member is introducing a witness at another hearing and couldn't 
be here, so I would like to use that time because I have a 
hearing that I have to go to soon after 10:30. I was hoping 
either of the two Administration witnesses in the course of 
their opening statement could address one particular--the 
interconnection between US-VISIT, a program which I think is a 
smart, sensible program to help us keep track of who is coming 
to this country, when they leave, what their status is while 
they're--and where they are while they're here, and NSEERS 
program, which I have some concern--I have a number of concerns 
about. And let me just mention, there was confusion about 
whether NSEERS continues to exist and its interrelationship 
with US-VISIT.
    When Secretary Ridge announced the US-VISIT system, it was 
widely reported that it was replacing NSEERS entirely. Three 
months later, last December, it was widely reported that 
Department of Homeland Security had brought NSEERS to an end. 
Later, it was clarified that the death of the program had been 
prematurely reported, that it was the only--it was only the re-
registration requirements that had been changed and not 
eliminated.
    The DHS question and answer release on US-VISIT clearly 
states that NSEERS will be subsumed entirely by US-VISIT in the 
future. Can you elaborate on this? What's the timeline for the 
elimination of NSEERS? How does it tie into US-VISIT 
implementation? And will this apply to all aspects of NSEERS? 
In other words, and in conclusion, will we see parity in 
treatment at points of entry, no difference based upon 
nationality, and will the re-registration requirements 
disappear completely or become a part of US-VISIT?
    Thank you, Mr. Chairman. And I appreciate to the extent you 
could address any of that in your opening comments, only 
because my fear is that at 10:30 I won't be around.
    Mr. Hostettler. The Chair now recognizes the gentleman from 
Iowa, Mr. King, for an opening statement.
    Mr. King. Thank you, Mr. Chairman, and I will keep it 
brief. But I appreciate you holding this hearing today, and I'm 
happy to be here and looking forward to the testimony of the 
witnesses. I was concerned when Homeland Security announced 
that most Mexicans who currently hold a border crossing card 
will now be processed through US-VISIT, and I believe that they 
should be. Under current law, those who hold a border crossing 
card as a border crossing card can only travel for up to 3 days 
in a border zone. But how do we know whether these cardholders 
are complying with these restrictions?
    In addition, we don't know whether any person is posing as 
a cardholder if fingerprints are not verified at each crossing. 
So currently DHS inspectors only check a border crossing 
cardholder's picture by sight.
    So I look forward to the day when US-VISIT will ensure that 
no border crossing cardholder stays illegally in the country 
for over the allotted 72 hours, and I'm encouraged by the 
progress in implementing US-VISIT.
    Thank you. I look forward to the testimony.
    Mr. Hostettler. I thank the gentleman.
    The Chair now will introduce the panel before us. In 2002, 
the Commissioner of Customs designated Robert M. Jacksta as the 
Executive Director of Border Security and Facilitation, U.S. 
Customs and Border Protection. Mr. Jacksta directs the day-to-
day activities of Border Security and Facilitation at the ports 
of entry. Mr. Jacksta first joined the Customs Service at New 
York's John F. Kennedy Airport in 1973 while attending college. 
During his long career, he has worked in the capacity of patrol 
officer, inspector, and senior inspector. Mr. Jacksta took an 
active role in the field, including work on national task 
forces and supervisory assignments, before transferring to 
Customs in Washington, D.C., in 1991. Mr. Jacksta has also 
served as port director of Washington, D.C., based at Dulles 
Airport, and director of passenger programs. The Commissioner 
recognized Mr. Jacksta in 1995 by awarding him the Customs 
Service's ``Customer Service Award.'' And in December 1999, he 
received the Commissioner Outstanding Performance Award. Mr. 
Jacksta received a bachelor of science degree from Buffalo 
State College in New York in 1976, where he majored in criminal 
justice.
    Mr. Robert Mocny is currently the Deputy Director of US-
VISIT within the Border and Transportation Security 
Directorate. He started his career in 1989 with the Immigration 
and Naturalization Service as an inspector at the port of entry 
in San Francisco, California. There he developed a series of 
automated management programs, later adopted by the INS for 
nationwide use. Mr. Mocny was also a special operations 
inspector, providing training in the detection of fraudulent 
documents. At INS headquarters in Washington, D.C., he 
established the Secure Electronic Network for Travelers' Rapid 
Inspection, or SENTRI, program, the world's first electronic 
border control program that expedites the entry of low-risk 
border crossers at the southern border. Mr. Mocny received his 
bachelor degree from the University of California at Santa 
Barbara.
    Alfonso Martinez-Fonts, Jr., is the Special Assistant to 
the Secretary for the Private Sector at the Department of 
Homeland Security. His duties include providing America's 
private sector with an avenue of dialogue with the Department. 
He has previously served in the private sector as chairman and 
chief executive officer of JP Morgan Chase Bank in El Paso, 
Texas, and president of the bank in San Antonio. Mr. Martinez-
Fonts has also served on many boards, including the Greater El 
Paso Chamber Foundation, the Fannie Mae Advisory Board, and the 
American Bankers Association Communications Council. He 
received his undergraduate degree in political science from 
Villanova University in 1971 and his MBA in finance from Long 
Island University in 1974.
    Mr. Randolph Hite is the Director of Information Technology 
Architecture and Systems Issues at the General Accounting 
Office, or GAO. During his 25-year career with GAO, he has 
directed reviews of major Federal investments in information 
technology, such as the IRS' tax systems modernization--which 
must have been a Herculean task itself--FAA's air traffic 
control modernization, the National Weather Service's weather 
systems modernization, Customs' import processing 
modernization, and DOD's business systems modernization. Mr. 
Hite has a business degree from James Madison University and 
has completed graduate work at George Washington University, 
Carnegie Mellon University, Harvard University, and Syracuse 
University.
    Gentlemen, thank you for your presence here today. Before I 
begin, I would like to also recognize, if not embarrass, a 
former employee of this Subcommittee, Lora Ries, who has 
returned. We very much appreciate her work on this Subcommittee 
over the years and know she is doing a great job for the 
Department. So it's good to have Lora here as well.
    Mr. Jacksta, the floor is yours.

  STATEMENT OF ROBERT M. JACKSTA, EXECUTIVE DIRECTOR, BORDER 
  SECURITY AND FACILITATION, OFFICE OF FIELD OPERATIONS, U.S. 
  CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Jacksta. Good morning, Chairman Hostettler, Members of 
the Subcommittee. Thank you for the opportunity to testify 
today. I am Robert Jacksta, Executive Director of Border 
Security and Facilitation, Office of Field Operations within 
U.S. Customs and Border and Protection. I would like to discuss 
today the efforts of U.S. Customs and Border Protection to 
secure our borders against terrorism and other criminal threats 
and how CBP has incorporated US-VISIT as a tool in this 
process.
    Prior to full integration into the Department of Homeland 
Security, U.S. Customs historically shared the responsibility 
of protecting our borders with multiple agencies, our closest 
partner in this endeavor being the Immigration and 
Naturalization Service. Since March 1, 2003, the border 
inspection functions of the agency, along with the Agricultural 
Quarantine Inspections, have been merged into one border 
control agency. Through CBP, all people and goods entering the 
United States must legally enter through one of our over 300 
land, air, and seaports of entry. In fiscal year 2003, more 
than 400 million travelers passed these ports into the United 
States.
    CBP is committed to programs aimed at efficiently and 
reliably identifying compliant travelers while ensuring that 
all travelers are screened. The US-VISIT program has integrated 
well into the CBP's existing programs to accomplish this 
mission. CBP has been a full working partner with the US-VISIT 
Program Office, and we continue to work with the Department of 
Homeland Security on this important issue.
    We have also been working with the Department of State, the 
Department of Justice, and other Federal agencies and have made 
great strides in improving overall border management. We do 
this through the collection of pre-arrival, arrival, and 
departure information on international travelers. To this end, 
CBP has been able to integrate US-VISIT with other CBP 
processes to increase the effectiveness of border management 
which includes biometric and biographical checks against law 
enforcement databases.
    In the fall of last year, in anticipation of US-VISIT 
implementation, 2,100 new work stations and document readers 
were deployed to each of the 115 airports and 14 seaports where 
US-VISIT is in place. In the fall of 2003, CBP trained over 
4,700 CBP officers in the use of US-VISIT and the process and 
implementation changes needed to make this an effective 
program.
    Since the initiation of US-VISIT on January 5, 2004, CBP 
has processed over 2 million travelers through US-VISIT, with 
no interruption in the facilitation of legitimate travelers 
into the United States. The US-VISIT process of capturing 
biometrics, two fingerscans, and a digital photo takes less 
than 15 seconds. The Automated Biometric Identification System 
that stores this data, called IDENT, takes only seconds to 
capture the person's information. Overall processing of those 
travelers has not significantly impacted flight processing. On 
the average, most flights are processed in less than 45 
minutes.
    There have been over 195 verified lookout matches since 
January 5, 2004. Those matches have enabled CBP to intercept 
rapists, drug traffickers, perpetrators of credit card fraud, 
and convicted armed robbers. Others who had been previously 
deported or denied entry and attempted to reenter using another 
alias have been intercepted and prevented from entering the 
country.
    One of CBP's important tools is the Advance Passenger 
Information System which allows the traveler's biographical 
data to be collected and vetted through law enforcement 
databases prior to their arrival. The biometrics collected upon 
arrival through US-VISIT allows CBP to verify the identity of 
the individual for whom the APIS data was transmitted. We have 
also established a National Targeting Center to use this 
information to generate advance queries and identify actionable 
targets. We have also provided important training to our 
officers, including anti-terrorism training, interviewing 
techniques, and document fraud training.
    With CBP's officer intuition, integration of advance 
technology, and multi-agency coordination, we have enhanced the 
security and safety of all citizens, residents, and visitors.
    As we move forward toward the expansion of US-VISIT 
initiatives to the land border, CBP will continue to leverage 
our existing programs, such as our National Targeting Center, 
dedicated commuter lanes, license plate reader program, free 
and secure trade, and biometric verification system to assist 
in meeting the Department of Homeland Security mandates.
    In summary, the US-VISIT process at airports and seaports 
has demonstrated its capability to enhance the security of our 
citizens and visitors, facilitate legitimate trade and travel, 
and ensure the integrity of the immigration service, at the 
same time protecting the personal privacy of our visitors. In 
just the first 2 months, the first release of US-VISIT has 
improved the security of our citizens and visitors. CBP 
officers are actually excited about having this new tool in 
their arsenal.
    Thank you again, Chairman Hostettler and Members of the 
Subcommittee. I would also like to invite you and your staff 
out to Dulles Airport so we can give you a live demonstration 
of an operational environment and how US-VISIT is used on a 
daily basis.
    [The prepared statement of Mr. Jacksta follows:]

                  Prepared Statement of Robert Jacksta

    Chairman Hostettler and Members of the Subcommittee, thank you for 
this opportunity to testify. I am Robert Jacksta, Executive Director 
for Border Security and Facilitation, Office of Field Operations. I 
would like to discuss the efforts of the U.S. Customs and Border 
Protection (CBP) to secure our borders against terrorism and other 
criminal threats and how CBP has incorporated US-VISIT as a tool in 
this process.
    Prior to integration into the Department of Homeland Security, the 
U.S. Customs Service historically shared the responsibility of 
protecting our borders with multiple agencies, our closest partner in 
this endeavor being the Immigration and Naturalization Service (INS). 
Since March 1, 2003, the border enforcement functions of the INS and 
Customs, along with the Department of Agriculture's Agricultural 
Quarantine Inspections have been merged into one border control agency, 
CBP. Through CBP, all people and goods entering the United States 
through one of over 300 land, air, or seaports of entry into the U.S. 
from foreign countries are subject to inspection. In fiscal year 2003, 
more than 400 million people passed through these ports into the United 
States.
    CBP is committed to programs aimed at efficiently and reliably 
identifying compliant travelers while ensuring that all travelers are 
screened appropriately. The US-VISIT program has integrated well into 
CBP's existing programs to accomplish this goal. CBP has been a full 
working partner with the US-VISIT Program Office within the Department 
of Homeland Security, and has committed to implement each phase of the 
US-VISIT mandate.
    We have also been working with the Department of State, the 
Department of Justice, and other federal agencies and have made great 
strides in improving overall border management through the collection 
of pre-arrival, arrival, and departure information on international 
travelers. To this end, CBP has been able to integrate US-VISIT with 
other CBP processes to increase the effectiveness of border management 
which includes biometric and biographical checks against law 
enforcement databases.
    In the fall of last year, in anticipation of US-VISIT 
implementation, 2,100 new workstations and document readers were 
deployed to each of the 115 airports and 14 seaports where US-VISIT is 
now in place. CBP has trained 4,700 Officers in the US-VISIT process 
and implemented changes to include US-VISIT as part of the initial CBP 
Officers training at the academy in Glynco, Georgia.
    Since the initiation of US-VISIT on January 5, 2004, CBP has 
processed over 2 million travelers through US-VISIT, with no 
interruption in the facilitation of legitimate travelers into the 
United States. There have been 195 verified lookout matches with the 
use of US-VISIT. Those matches have enabled CBP to intercept rapists, 
drug traffickers, perpetrators of credit card fraud, and convicted 
armed robbers. Others who had been previously deported or denied entry 
and attempted to reenter using another alias have been intercepted and 
prevented from entering the country.
    One of CBP's important tools is the Advance Passenger Information 
System (APIS) which allows the traveler's biographical data to be 
collected and vetted through law enforcement databases prior to their 
arrival. The biometrics collected upon arrival through the US-VISIT 
process allows CBP to verify the identity of the individual for whom 
the APIS data was submitted and identify those who may be utilizing 
multiple identities or false documents. We have also provided important 
training to our Officers including Anti-Terrorism training, 
interviewing techniques and document fraud.
    With the integration of advance technology, multi-agency 
coordination, and front line CBP Officer intuition, we have enhanced 
the security and safety of citizens, residents and visitors.
    CBP's integration of US-VISIT at ports of entry has not come at the 
expense of legitimate travel. The US-VISIT process of capturing 
biometrics, two fingerscans and a digital photo, takes less then 15 
seconds. The Automated Biometric Identification System that stores this 
data, called IDENT, takes only seconds to capture the person's 
information. Overall processing of those travelers subject to US-VISIT 
has not significantly impacted flight processing. On the average, most 
flights are processed in less than 45 minutes; which is about the same 
time it took before we implemented US-VISIT.
    As we assist US-VISIT in meeting the next phase of mandates in the 
initiative, CBP will continue to leverage our existing programs, 
including Dedicated Commuter Lanes such as NEXUS and SENTRI, License 
Plate Reader programs, Free and Secure Trade and the Biometrics 
Verification System.
    In summary, the US-VISIT process at airports and seaports has 
demonstrated its capability to enhance the security of our citizens and 
visitors, facilitate legitimate travel and trade, ensure the integrity 
of the immigration system and safeguard the personal information of 
visitors from theft or misuse. In just the first two months, the first 
release of US-VISIT has improved the security of our citizens and 
visitors. CBP Officers have said that the new tools we have put in 
place truly help them do their job more effectively.
    Thank you again, Chairman Hostettler and members of the Sub-
Committee, for giving U.S. Customs and Border Protection this 
opportunity to testify. I would be happy to answer any questions you 
may have.

    Mr. Hostettler. Thank you, Mr. Jacksta, and I look forward 
to that visit.
    Mr. Mocny, the floor is yours.

STATEMENT OF ROBERT A. MOCNY, DEPUTY DIRECTOR, US-VISIT OFFICE, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Mocny. Thank you, Chairman Hostettler. Before I begin, 
could you afford me some additional time to answer Mr. Berman's 
questions, or do you want me to go through my opening statement 
first?
    Mr. Hostettler. Without objection. He will be leaving in a 
short time. That would be very helpful.
    Mr. Mocny. As you mentioned, the 30-day and 1-year 
provisions of NSEERS have been discontinued. By regulation, we 
stopped that as of December of last year. The registration at 
the ports of entry will continue for a period of time. That 
will continue until we can kind of meld into or develop into 
the US-VISIT program the additional questions that we would 
need to ask of any individual who might pose a particular 
threat. As you know, the five states that sponsor terrorism are 
some of the individuals who are a part of that extra 
questioning. The other countries are based on actual 
intelligence, and without getting into the exact criteria, 
those individuals are asked to provide additional information.
    We have always had that ability to ask additional questions 
of any individual who either poses a threat or, for whatever 
reason, cannot quite answer all the questions on the primary, 
so we ask those individuals to go back into a secondary area 
where we can spend additional time without holding up the 
traffic there.
    We will bring into US-VISIT the additional scrutiny that 
would apply to these individuals. I can't give you a specific 
time. I think we've been on the record to talk about an award 
in May that we would give to the private sector who look at the 
long-term vision of US-VISIT and where we can fit into the 
current questioning process and the current processing of US-
VISIT individuals how we might bring in a secondary piece of 
that. So it is true that the current process will continue as 
it has continued at the ports of entry. These people, of 
course, do not have to show up for a 30-day reinterview. They 
do not have to show up for a 1-year interview. And there is no 
more domestic registration. That was ended as well.
    Mr. Hostettler. The Chair now recognizes Mr. Mocny for 5 
minutes.
    Mr. Mocny. Thank you, Chairman Hostettler and other 
distinguished Members. It is an honor to appear before you 
today to discuss the Department of Homeland Security's US-VISIT 
program. You have just heard from my colleague, Bob Jacksta, on 
the positive impacts this program has already had on the safety 
and security of the United States. In the next few minutes, I 
would like to share with you a glimpse of our vision and how we 
will achieve our goals of enhancing national security, 
facilitating the entry of legitimate trade and travel, ensuring 
the integrity of our immigration system, and protecting the 
privacy of our visitors.
    Before I do that, let me first thank this Committee for its 
leadership in establishing the statutory framework for US-
VISIT. I would like to express my appreciation to Congressman 
Lamar Smith, as you did, for his vision of an entry and exit 
system and all the others who provided the discipline and focus 
that has resulted in the first successful increment of US-
VISIT. I was in front of this Committee in 1998 testifying how 
technology could assist us in our entry and exit system. Today, 
we can all claim some victory, perhaps later than many of us 
would have liked, but victory nonetheless as we have begun to 
address the critical issues of illegal immigration and the 
safety and security of our Nation.
    The Department of Homeland Security has a vision for a 
virtual border. This vision involves not only our Department 
but also the Departments of State, Justice, Transportation, 
Commerce, and others. It depends on the active participation of 
the countries in the visa waiver program. Indeed, it involves 
the entire international community.
    In this vision, we see a decision-making process that 
begins far from the physical boundaries that define our 
sovereign national territory and long before any foreign 
national arrives at a port of entry. Border security will not 
occur at a defined point on a map, but through millions of 
lines of code in a computer system and millions of human 
decisions a day.
    Unfortunately, today many of these decisions are made 
without full information. Over the decades, we have amassed a 
great deal of information on foreign nationals, but that data 
is in separate databases in stove-piped systems and spread 
across the Federal Government. US-VISIT seeks to take account 
of that data, integrate where appropriate, and retire systems 
where appropriate, and create new business processes and use 
the latest technology to reform the entire system. This 
modernization effort will require the collective will and 
resources of many of the departments, agencies, and bureaus I 
mentioned earlier. We need to assimilate the right information 
and provide that information to the decision makers who grant 
visas, grant admission to the United States, grant benefits, 
and decide who to detain or release.
    This means that consular officials from the Department of 
State will have up-to-date information generated by the 
Department of Homeland Security, and the Department of State 
will establish identities through the use of biometrics and 
provide these biometrics and other visa information to the 
Department of Homeland Security. This will help us decide whom 
to move quickly through the clearance process and with whom to 
spend more time.
    If our mission is to reform our borders, we must build into 
the program the right enforcement mechanisms. By virtue of our 
name, US-VISIT, we want to remain a welcoming country. But we 
must also stand ready to remove those few individuals who 
violate the terms of their visa. US-VISIT will supply 
information to the Compliance Enforcement Unit of Immigration 
and Customs Enforcement so that through online searches of 
addresses supplied by the visitor and other contact information 
we have collected, agents will be able to locate and remove 
non-compliant visitors.
    The numbers are daunting. With over 400 million inspections 
each year, billions of dollars in trade, dependencies on 
tourism, and millions of foreign students attending our 
schools, the Federal Government cannot do this alone. So US-
VISIT has reached out to the private sector. The transportation 
industry, port authorities, technology companies, and others 
will play a critical role in this new vision. You will hear 
shortly from Mr. Al Martinez-Fonts who will describe how US-
VISIT engaged with the private industry.
    And speaking with the latest technology, our solution for 
the land border is dependent on it. As of December 31, 2004, 
foreign nationals requiring a visa arriving at one of the 50 
busiest land ports of entry will have their two index fingers 
scanned and have a digital photograph taken. That's the easy 
part. But for the millions of border crossing cardholders and 
other foreign nationals who may not require a visa and cross 
daily, we need a mechanism to efficiently capture their data. 
We need to digitize our borders. We will do this by building 
upon the successful SENTRI and NEXUS programs that use radio 
frequency technology. This technology has been tested, it is 
mature, and it is the solution that will enable us to secure 
our borders while we expedite the flow of legitimate trade and 
travel that we depend on for a strong economy. Since we last 
talked about this subject, as one would expect, technology has 
evolved, and within a relatively short period of time, we 
believe that we can combine radio frequency technology with 
biometrics so that individuals can be positively identified 
when they enter the United States and when they exit. We now 
have the opportunity and the will to make this a reality.
    US-VISIT is only getting started. We have a long way to go, 
but along that way we will be able to demonstrably improve the 
security of the Nation without harming our economy. The U.S. is 
a welcoming country. But we, as stewards of immigration, must 
continue to enhance our ability to protect the Nation and 
ensure the integrity of the immigration process. We believe 
that US-VISIT is a major step in reforming our borders. It is 
also the responsible thing to do.
    That's the end of my testimony. I believe we now have a 
video, if we can, to show the US-VISIT process. These series of 
shots were taken at Atlanta's Hartfield Jackson Airport. It is 
about 2 minutes long, Mr. Chairman. The volume might be a 
little bit low, so if we could have it as quiet in here as 
possible, that would be very helpful.
    Thank you.
    [The prepared statement of Mr. Mocny follows:]

                   Prepared Statement of Robert Mocny

    Chairman Hostettler, Ranking Member Jackson Lee and other 
distinguished Members, it is a pleasure to appear before you today to 
discuss the Department of Homeland Security's US-VISIT program and how 
this fits in with our commitment to protect the homeland.
    US-VISIT represents yet another major milestone in enhancing our 
nation's security and our efforts to reform our borders. It is a major 
step towards bringing integrity back to our immigration and border 
enforcement systems.
    US-VISIT is a continuum of security measures that begins before an 
individual enters the United States and continues through arrival and 
departure from the United States. It incorporates eligibility 
determinations made by both the Department of Homeland Security (DHS) 
and the Department of State.
    Using biometrics such as digital, inkless fingerscans and digital 
photographs, DHS is able to determine whether the person applying for 
entry to the United States is the same person who was issued the visa 
by the Department of State. Additionally, the biometric and biographic 
data are checked against watch lists, improving the DHS' ability to 
make admissibility decisions as well as the Department of State's 
ability to make visa determinations.
    US-VISIT procedures are clear, simple, and fast for foreign 
nationals.
    DHS deployed US-VISIT on time, on budget, and has met the mandates 
established by Congress, as well as the challenge by the Secretary of 
Homeland Security to incorporate biometrics (fingerscans) into US-VISIT 
ahead of schedule. By January 5, 2004, US-VISIT entry procedures were 
operational at 115 airports (covering 99% of air travelers who use 
nonimmigrant visas to enter the United States) and 14 seaports, and we 
began pilot testing biometric exit procedures at one airport and one 
seaport. As of yesterday more than 2 million foreign visitors have been 
processed under the US-VISIT entry procedures.
    Already US-VISIT has prevented over 195 people from entering the 
United States--91 were stopped at the overseas visa-issuing post and 60 
were identified at the port of entry, all because of a biometric match.
    Our border management system impacts the security of our citizens 
and our visitors, affects billions of dollars in trade and travel and 
helps define relations with our international partners. There is a need 
to improve this system and bring it into the 21st century with a new 
integrated system of technological processes that will keep our 
country's economic and national security strong. This 21st century 
technology will provide an important step toward achieving the 
President's goal of secure U.S. borders.
    In just a few months, the first release of US-VISIT has improved 
the security of our citizens and visitors. It seems clear that visitors 
appreciate the effort we are making to deliver security while 
simultaneously facilitating the process for law-abiding, legitimate 
travelers. US-VISIT is an effective deterrent,[UB1] for its biometric 
capabilities convince many criminals that they will not be able to hide 
their true identity.
    We must continue to respect our visitors' privacy, treat them 
fairly, and enable them to pass through inspection quickly so they can 
enjoy their visit in our country. As people attempt to enter our 
country, we must know who they are and whether they intend to do us 
harm, the ability of US-VISIT to rapidly screen applicants' biometrics 
and biographic information through watch lists and databases means we 
can have security and control without impeding legitimate travelers, 
and we can also help protect our welcomed visitors by drastically 
reducing the possibility of identity theft. Moreover, as visitors leave 
the country, we must know that they have not overstayed the duration of 
their visa.
    But we are not finished. This is a complicated job that will take 
time to complete. In fact, US-VISIT is designed to be rolled out in 
increments to ensure that the foundation is strong and the building 
blocks are effective. With the deployment of the entry components at 
air and sea ports, we have made a strong beginning, and going into 
2004, we are on track to meet the December 31, 2004 deadline to 
integrate US-VISIT procedures at the 50 busiest land border ports of 
entry.
    We are seeing that we can accomplish what we set out to do: keep 
out terrorists, enhance the integrity of our immigration system, 
facilitate legitimate travel and trade and help protect the privacy and 
identity of our visitors. To ensure the continued success of this 
important program, we are working with the National Institute of 
Science and Technology (NIST) and with the Departments of Justice, and 
State to enlarge our capability to identify criminals and terrorist 
prior to issuing a visa or granting entry to the U.S.

                MOVING TO A ``VIRTUAL BORDER'' SOLUTION

    The vision of US-VISIT is to deploy an end-to-end border management 
program. This comprehensive view of border management leads to a 
virtual border. It elevates the requirement to develop the best 
processes to manage data on foreign nationals. It will provide an 
information-rich solution that better informs the border management 
decision makers and improves upon the information available to support 
the pre-entry, entry, status management, exit, and analysis processes.
    Much of the emphasis to date on the entry/exit system has focused 
specifically on the entry and exit processes at the ports of entry--
thus the ``port-centric'' solution. One of the key initiatives of the 
US-VISIT Program is to adjust this focus to a ``virtual border'' 
solution, placing equal emphasis on the pre-entry, entry, status 
management, exit, and analysis processes associated with this Program. 
The virtual border will enhance national security by matching the 
identity of foreign nationals, facilitate legitimate trade and travel, 
and ensure the integrity of our immigration system by improving 
enforcement. DOS determines eligibility for a U.S. visa based on a 
review of all relevant information including information on criminal 
history and possible terrorism activity.

        THE ENTRY PROCESS WILL USE BIOMETRICS TO MATCH IDENTITY

Pre-Entry
    For millions of visitors, entry into the U.S. must be preceded by 
the issuance of travel documents at a U.S. embassy or consulate abroad. 
The purpose of the pre-entry process is to determine eligibility for 
immigration status and/or visas at DOS consular offices worldwide or 
DHS immigration Service Centers.
    The pre-entry process is a critical component of the US-VISIT 
virtual border. The consular officers gather a large amount of 
information prior to a foreign national's arrival at a port. This data 
will now be made available to appropriate border management agencies. 
In turn, the US-VISIT Program will provide additional information to 
the consular officer or Citizenship and Immigration Services 
adjudicators who are determining a foreign national's eligibility, 
including a history of entries and exits, photographs, and fingerscans 
that can be used to search watch lists.
    Since the beginning of 2004, the pre-entry process includes 
analysis of the manifest supplied by the airlines for each 
international flight to determine the nonimmigrant visa holders on 
board the plane. This is done through the Advanced Passenger 
Information System or APIS. [UB2] This information is used by the U.S. 
Customs and Border Protection Officers to identify travelers of concern 
and pre-position information to support the inspectors at the port.

Entry Process
    The purpose of the entry process is to determine the admissibility 
of foreign nationals requesting entry into the U.S. at air, land, or 
sea ports. The entry process can begin at a primary port inspection 
booth at an air, sea, or land ports, or at a temporary inspection 
location such as a ship lounge. Foreign nationals can also be inspected 
at certain pre-inspection locations overseas, such as Shannon Airport 
in Ireland.
    As part of the US-VISIT entry process, foreign nationals will be 
required to provide biometric data, biographic data, and/or other 
documentation, which provides for increased accuracy when making an 
entry/no exit decision.[UB3] This data is used to match identity, 
determine proper visa classification, and to query the watch list. 
Inspectors match identity of each foreign national collected by DOS, 
and determine the visitor's admissibility.
    All ports share similarities in inspection processes and inspectors 
must quickly conduct a primary inspection and determine if the 
applicant should be recommended for a more in-depth review at the 
secondary inspection point. The average primary inspection for foreign 
nationals, lasts approximately one minute.
    Although all inspections involve certain basic tasks, there are 
marked differences between an inspection conducted at an air or sea 
port and one conducted at a land port because at a land port you have a 
very different physical environment. Land ports experience:

        <bullet>  A larger volume of inspections.

        <bullet>  Limited or non-existent advance access to data about 
        approaching pedestrians, passengers, or commercial freight. 
        Multiple modes of transportation, including commercial and 
        private vehicles, buses, trains, and pedestrians. This 
        commingling significantly increases the potential for traffic 
        congestion

        <bullet>  A high volume of commercial freight traffic.

        <bullet>  Local commuters as a majority of persons arriving.

    To expedite the flow of traffic at land ports, several technologies 
have been implemented in recent years that are listed below. With 
implementation of the virtual border, we will be able to match 
information on each foreign national when presented for inspection, and 
determine the risk of allowing entry.

        <bullet>  The Secure Electronic Network for Traveler's Rapid 
        Inspection (SENTRI or Dedicated Commuter Lane) program uses an 
        electronic, radio frequency (RF)-based technology to enable 
        dedicated commuter lanes. This expedites the flow of low-risk, 
        frequent border crossers through a port while maintaining the 
        security of our borders. Users are pre-enrolled, and extensive 
        background checks are conducted through a network of law 
        enforcement databases. Each time a participant enters through 
        the SENTRI lane, the system automatically accesses the database 
        and displays all persons who are authorized to be in the 
        vehicle. This system is vehicle-based rather than passenger-
        based and relies on transponders for RF transmission

        <bullet>  NEXUS (License Plate Reader) uses the same RF 
        technology as SENTRI and includes a pre-enrollment process to 
        screen applicants and then issues a proximity card that can be 
        read as the car moves past the inspection station. The 
        inspecting officer makes a positive visual identification of 
        each participant based on the picture and personal information 
        on screen. This system is individual passenger-based as opposed 
        to being vehicle-based and uses proximity card technology for 
        transmission of information.

    For land borders, we are considering including expanded use of 
Radio Frequency (RF) technology to expedite processing of frequent 
border crossers using biographical data as a part of the virtual border 
solution. Also, we are currently looking at ways to use RF technology 
to facilitate travel and collect entry and exit data. To that end, we 
are planning to test RF technology at select primary entry and exit 
lanes of the 50 busiest land border crossings. These plans are not part 
of the statutory mandate for December 31, 2004. Regardless, we will 
work to optimize the use of RF technology at our land ports of entry 
such that visitors can pass through the inspection point with minimal 
delay.

            STATUS MANAGEMENT INCLUDES IDENTIFYING OVERSTAYS

    Managing the status of foreign nationals once inside the borders of 
the U.S. includes, but is not limited to:

        <bullet>  Monitoring the terms of their admission by matching 
        the entry and exit records to determine if any foreign national 
        has overstayed the terms of admission

        <bullet>  Identifying violations in terms of admission

        <bullet>  Referring watch list and visa compliance leads to 
        agencies and organizations responsible for enforcement.

    Maintaining the status of foreign nationals while in the United 
States is an integral part of border management and ensuring the 
integrity of the immigration system. One of the US-VISIT Program's 
primary roles in status management will be the overstay calculation, 
and exchanging appropriate entry and exit information with case 
management systems, especially those managed by U.S. Citizenship and 
Immigration Services.

          THE EXIT PROCESS WILL CAPTURE DEPARTURE INFORMATION

    With the implementation of US-VISIT's virtual border, the exit 
process at air and sea ports will require the visa holder to provide 
information to match against the information provided upon entry. One 
exit option currently being piloted captures two fingerscans, and 
transfers the data to IDENT to match the arrival and departure records. 
This information is also run against ADIS and IBIS.
    This one pilot process-consisting of automated kiosks--is being 
tested at Baltimore-Washington International Airport and at a Miami 
Seaport cruise line. US-VISIT will test other departure confirmation 
alternatives and evaluate all of the options to develop the best exit 
solution.
    Implementation of an exit process at land borders has more 
complexities and has yet to be determined.
    With this virtual border, we will know who left the U.S. through a 
port of departure and who remains.

             THE ANALYSIS OF INFORMATION PROCESS WILL USE 
           US-VISIT INFORMATION TO EXTEND THE VIRTUAL BORDER

    The purpose of the analysis of information process is to provide 
information that will aid border management in their decision-making 
process. Currently, the Arrival/Departure Information System (ADIS) 
system is the primary data source for use in these analyses.
    A visitors' information is stored and routinely updated in the 
ADIS. Information compiled in ADIS will tell the officer if an 
individual has complied with the terms of his or her admission. ADIS 
illustrates a visitor's travel history, information that the U.S. 
Customs and Border Protection officer can use to make admission 
determinations. If the history illustrates any immigration violations, 
the officer would give more scrutiny to the visitor.
    As the US-VISIT Program moves into the direction of the virtual 
border, this process will take on an ever-increasing level of 
importance. In migrating to the US-VISIT virtual border solution, 
emphasis will be placed on providing an increased level of information 
to all border management personnel (e.g., the consular official, the 
inspector, the adjudicator, and the investigative officer) to aid them 
in making critical decisions.

         WE WILL SAFEGUARD THE PERSONAL PRIVACY OF OUR VISITORS

    An obvious concern for all legitimate travelers is that criminals 
will use their lost or stolen travel documents to enter the United 
States. Biometric identifiers make it difficult for criminals to travel 
on someone else's travel documents. This is a significant benefit that 
US-VISIT delivers for the millions of legitimate travelers we welcome 
each year. In addition, we must continue to respect our visitors' 
privacy.
    Additionally, one of US-VISIT's primary goals is to safeguard the 
personal information in a way that is responsible and respectful of 
privacy. US-VISIT will collect personal information of visitors in 
order to determine immigration admissibility. This information will be 
used for interactions with U.S. officials during the pre-arrival, 
arrival, stay and exit from the United States.
    We are complying with both the letter and the spirit of the Privacy 
Act of 1974 and the E-Government Act of 2002. We are developing a 
comprehensive privacy program that ensures that we use personal 
information appropriately, that it is protected from misuse and 
improper disclosure, and destroyed when no longer needed.
    And, in spite of the fact that these laws do not require US-VISIT 
to have a Privacy Impact Assessment (PIA), because a PIA applies to 
U.S. citizens and lawful permanent residents versus non-immigrants, we 
have prepared one as we as we believe that all visitors' information 
should be protected. The PIA is being reviewed by external audiences 
including several privacy advocacy groups.
    Additionally, we have developed a three-step redress process for 
visitors to have their records reviewed and amended or corrected to 
ensure accuracy, relevancy, timeliness, or completeness.
    This comprehensive privacy program is being spearheaded by DHS's 
Chief Privacy Officer, Ms. O'Connor Kelly, to ensure that US-VISIT is 
in compliance with the appropriate privacy rules and regulations. Also, 
US-VISIT hired its own privacy officer to oversee its program.
    We have also done extensive outreach, meeting with numerous 
advocacy, privacy and immigration groups to solicit input and hear 
concerns, which have been taken into account in the development of the 
program.
    The US-VISIT PIA was hailed by many in the privacy community as an 
excellent model of transparency, including detailed information about 
the program, the technology and the privacy protections.

           US-VISIT'S VIRTUAL BORDER IMPLEMENTATION SCHEDULE

    US-VISIT is being implemented in increments, with the first on 
December 31 of last year. The other increments will be deployed over 
the coming years with the ultimate goal of having a robust system that 
can deliver all of the US-VISIT goals. The steps to this program 
include:

Increment 1 COMPLETED

        <bullet>  Collect and verify biometrics for foreign nationals 
        arriving with nonimmigrant visas at air and seaports of entry 
        by 12/31/03

        <bullet>  Check admissibility against watchlists using 
        biographic and biometric data

        <bullet>  Establish exit pilots and complete testing by end of 
        FY 2004 with implementation to occur in FY 2005.

Increment 2A--10/26/04:

        <bullet>  Issue U.S. biometric travel documents following 
        International Civil Aviation Organization (ICAO) standards

        <bullet>  Deploy capability to read biometric travel documents 
        in compliance with ICAO standards at air and sea ports of 
        entry.

Increment 2B--12/31/04:

        <bullet>  Extend Increment 1 capability to 50 highest volume 
        land ports

Increment 3--12/31/05:

        <bullet>  Extend Increment 2B to remaining land ports

Increment 4:

        <bullet>  Launch initial roll-out of US-VISIT envisioned 
        program

                           US-VISIT'S BUDGET

    We deployed US-VISIT on budget and on schedule. During Fiscal Year 
(FY) 2003 we used appropriated funds of $367 million to achieve 
successful deployment to 115 airports and 14 seaports. Specifically we 
have:

        <bullet>  Implemented/interfaced systems to reduce redundancy 
        and make more information available

        <bullet>  Upgraded our infrastructure to support added 
        biometrics

        <bullet>  Deployed the US-VISIT program to 115 airports and 14 
        seaports on January 5, 2004

        <bullet>  Initiated the exit pilot at one airport and one 
        seaport

        <bullet>  Established the US-VISIT program office

    During FY 2004, we have a total of $328 million plus an additional 
$10 million in no-year funds that we intend to use to continue meeting 
our goals. Currently, our FY 2004 Expenditure Plan is approved by the 
U.S. Senate and waiting approval from the U.S. House of 
Representatives, and when these funds are released we plan to:

        <bullet>  Analyze, field test, and initiate deployment of 
        alternative approaches for verifying identity on exit at air 
        and sea ports of entry

        <bullet>  Implement US-VISIT Increment 1 capabilities at the 50 
        busiest land border ports of entry by December 2004

        <bullet>  Install biometric readers at all air, sea, and land 
        ports of entry

        <bullet>  Continue building our program management capabilities

    In addition, we plan to award a contract to a prime contractor for 
further development of our end vision. This comprehensive approach to 
border management will lead to the creation of a virtual border and 
will set the course for improved processes for management of data on 
foreign visitors.

                    THE SUCCESS STORIES OF US-VISIT

    Since US-VISIT entry procedures were implemented, it has resulted 
in the interception of dozens of individuals who matched various law 
enforcement information. These included rapists, drug traffickers, 
credit card and visa fraud criminals, and a convicted armed robber.
    Here are details of a few examples.
    1)  Interception of Drug Trafficker who escaped from Prison
        On January 14, 2004, at Miami International Airport, a man from 
        Peru was traveling to the U.S. When he arrived at the CBP 
        Officer's booth for admittance, he was enrolled in US-VISIT. 
        His fingerscans matched the ones already in a federal criminal 
        database. This man was wanted by the U.S. Marshals for escaping 
        from LaTuna Federal Correction Facility where he had been 
        serving a sentence for a conviction of dealing cocaine. After 
        his escape, an arrest warrant was issued. In May of 2003 he re-
        entered the U.S. without incident. Now, with the help of US-
        VISIT biometric processes, this man was caught and returned to 
        federal prison on the warrant. US-VISIT prevented an escaped 
        convict and drug trafficker from roaming the streets of Miami.
    2) Closing a Deportation Loop Hole
        On January 18, 2004, a man who has had four aliases tried to 
        enter the U.S., even with a ``failure to appear'' warrant for 
        him. DHS/ICE issued the warrant on August 8, 2003, and since 
        then this man had entered the U.S. at least five times. Now, 
        with the ability to match fingerscans with those in a criminal 
        database, this man's luck ran out. He was removed from the U.S. 
        and put on the next flight back to Colombia.
    3) Passport Fraud Uncovered
        On January 14, 2004, a British West Indies Airways flight 
        arrived at JFK International Airport in New York carrying a 
        woman from Trinidad. Because US-VISIT begins at the visa-
        issuing post, a photo of the visitor was on file and accessible 
        by the Customs and Border Protection Officer, who determined 
        that she had used a false name. In reality, the traveler was a 
        woman who had been arrested in April 2000 in New Orleans and 
        convicted of passport fraud. At that time, the woman was placed 
        on five years' probation and ordered not to enter the U.S. 
        without the attorney general's written permission. The woman, 
        whose husband lives in the U.S., then obtained a passport and 
        U.S. visa by fraud in Trinidad for $2,000.
    4) Convicted Sexual Offender Identified
        In New York City, on February 19, 2004, a native of Trinidad 
        and Tobago attempted to enter the United States. He was not 
        listed as wanted for any crimes after standard biographic 
        criminal data systems checks, but a biometric check under US-
        VISIT uncovered a prior conviction for having sex with a minor 
        in 2000, his registration as a convicted sex offender, and a 
        removal from the United States in 2001 as an aggravated felon. 
        He had also lived and worked illegally in the United States. He 
        was placed in expedited removal proceedings.
    5) Rape Suspect Caught
        On February 22, 2004, at Miami International Airport, a man 
        from Jamaica attempted to enter the United States after 
        arriving on an Air Jamaica flight. Biographic and US-VISIT 
        biometric checks alerted officers to an active warrant from New 
        York City for strong armed rape. Criminal history checks also 
        uncovered 3 prior convictions for possession or sale of 
        marijuana in 1994 and 1995, as well as a 1998 rape arrest. He 
        was turned over to Miami-Dade police for extradition to New 
        York.

A CBP Trainee Rises to the Occasion
    U.S. Customs and Border Protection Officer Trainee Rafal Izycki was 
working at primary inspection at Chicago O'Hare International Airport. 
An Albanian national seeking admission into the U.S. appeared before 
him and presented an Albanian passport. When Inspector Izycki compared 
the State Department photo image biometric provided by US-VISIT against 
the biometrics photographs on the passport and visa, he realized that 
the person in front of him was not the person who had obtained the 
visa. He immediately referred the Albanian national for a secondary 
inspection where it was determined that the passport had been photo-
substituted and the non-immigrant visa had been altered. The capability 
to access the State Department biometric photographs of visa applicants 
provides a powerful tool for inspectors working to protect the U.S.

                  AN UPDATE ON US-VISIT PROGRAM OFFICE

    Secretary Ridge approved the creation of a US-VISIT program office, 
and positions have been approved to fill the organization and manage 
the program. The US-VISIT program team consists of representatives from 
the various components of DHS responsible for border security, 
including the U.S. Immigration and Customs Enforcement, U.S. Customs 
and Border Protection, and the Transportation Security Administration. 
U.S. Citizenship and Immigration Services is also represented. Other 
DHS components that assist the US-VISIT team include the Directorate 
for Management and the Science and Technology Division. In addition, 
outside DHS, the team consists of representatives from the Departments 
of Transportation, State, Commerce, Justice, and General Services 
Administration.

                             THE CONCLUSION

    US-VISIT is critical to our national security as well as our 
economic security, and its implementation is already making a 
significant contribution to the efforts of the Department of Homeland 
Security to provide a safer and more secure America. But US-VISIT and 
the broader vision of a `virtual border' cannot be left unfinished. It 
is the correct program at the right time, not only for the security of 
our country, but also for the integrity of our immigration system. We 
will build upon the initial framework and solid foundation to ensure 
that we continue to meet our goals to enhance the security of our 
citizens and visitors while facilitating travel for the millions of 
visitors we welcome each year.
    We want to ensure that we continue to be a welcoming nation, a 
nation that invites visitors to study, do business, and relax in our 
country. We also owe it to our citizens and visitors to deny entry to 
persons wishing to do harm, or who are inadmissible to the U.S. Few 
would dispute that these steps are necessary. These steps will be made 
easier because of US-VISIT and the information
    We are committed to building a program that enhances the integrity 
of our immigration system by catching the few and expediting the many, 
and we recognize that the U.S. is leading the way in helping other 
countries around the world keep their doors open and their borders 
secure.

    Mr. Hostettler. Very good. Thank you.
    [Video shown.]
    Mr. Hostettler. Thank you, Mr. Mocny.
    The Chair now recognizes Mr. Martinez-Fonts for 5 minutes.

STATEMENT OF ALFONSO MARTINEZ-FONTS, JR., SPECIAL ASSISTANT TO 
   THE SECRETARY FOR THE PRIVATE SECTOR, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Martinez-Fonts. Good morning, Chairman Hostettler, 
Ranking Member Jackson Lee, and other distinguished Members of 
the Subcommittee. It is both a pleasure and an honor to appear 
before you today to discuss the Department of Homeland 
Security's US-VISIT program and how the Private Sector Office 
works with the US-VISIT program to engage the business 
community in this critical program.
    Under the charter given us by Congress and the President, 
the Private Sector Office was designed to provide America's 
business community a direct line of communication to the 
Department of Homeland Security. With the guidance and 
assistance of Secretary Ridge and our Department colleagues, 
the Private Sector Office works directly with individual 
businesses, trade associations, chambers of commerce, and other 
professional and non-governmental organizations to share 
Department information, programs, and partnership 
opportunities.
    As mandated by the law, we are in the process of developing 
the capability to do economic analysis on the effect the 
Department's rules and regulations will have on the private 
sector.
    As a provider of goods and services and the creator of 
tools and technologies that make our lives better, it is the 
private sector that helps make our Nation more secure. At the 
same time, it is the private sector that will be affected by 
many of the actions of the Department such as US-VISIT. 
Congress and the Administration duly recognize that the private 
sector plays a critical role in our Nation's ability to 
prevent, respond, and recover from prospective incidents. 
Furthermore, all of us here today accept the fact that the 
private sector is a fundamental partner in the Department's 
nationwide efforts to secure our homeland. The rewards of the 
Department's growing relationship with the private sector are 
evident in the program we are here to discuss today.
    From the very beginning of the US-VISIT program, my office 
and our Department colleagues have worked to engage the private 
sector, to listen to their comments and to respond to their 
concerns every step of the way. Since the program began to take 
shape some months ago, the Department and the private sector 
have learned a great deal about one another and the challenges 
and opportunities we both have to contend with as we go about 
modernizing our borders, harmonizing our systems, and creating 
a better, faster, and more secure border. The lessons learned 
from this endeavor are making US-VISIT a better program and 
will help its future implementation at more ports of entry 
around the country.
    Our efforts in this program have also defined a performance 
measure by which the Department can assess the engagement, 
partnership, and cooperation with the private sector. With them 
as our partner and the guidance and support of this Committee 
and Congress, I am confident this success will continue and 
make our homeland even more secure.
    Thank you again for the opportunity to be with you, and I 
look forward to addressing any questions that you might have.
    [The prepared statement of Mr. Martinez-Fonts follows:]

                Prepared Statement of Al Martinez-Fonts

    Chairman Hostettler, Ranking Member Jackson Lee and other 
distinguished Members, it is a pleasure to appear before you today to 
discuss the Department of Homeland Security's US-VISIT program and how 
the Private Sector Office works with the US-VISIT Program Office to 
engage the business community in this critical program.
    Under the charter given to us by Congress and the President, the 
mission of the Private Sector Office is to provide America's business 
community with a direct line of communication to the Department of 
Homeland Security. With the guidance and assistance of Secretary Ridge 
and our Department colleagues, the Private Sector Office works directly 
with individual businesses, trade associations, and other professional 
and non-governmental organizations to share information about 
Department programs and opportunities.
    The private sector is a fundamental partner in the Department's 
nationwide efforts to secure our homeland. The rewards of the 
Department's growing relationships with the private sector are evident 
in the program we are here today to discuss.
    US-VISIT represents yet another major milestone in enhancing our 
nation's security and our efforts to reform our borders. It is a 
significant step towards bringing integrity back to our immigration and 
border enforcement systems. Perhaps most importantly it represents our 
government's commitment to leveraging 21st century technology to ensure 
we have both economic security and national security, because we cannot 
have one without the other.
    As head of the Department of Homeland Security's Private Sector 
Office, it has been my job to engage all sectors of the business 
community. It is critical for the voices of the private sector to be 
heard during all phases of the development and rollout of US-VISIT. 
Their contributions and input have been essential in helping to ensure 
the effective deployment of US-VISIT.
    It is important to note that the private sector has been an 
important partner throughout the development and rollout of US-VISIT. 
As you know, the first increment of US-VISIT was completed on time and 
on budget, and we thank our partners in the private sector for helping 
to make this early success a reality. All facets of the aviation 
community were integral factors as we planned, piloted and launched US-
VISIT last year.
    My colleagues Mr. Mocny and Mr. Jacksta have shared their thoughts 
and perspectives on US-VISIT in terms of the breadth and continuity of 
the security initiative. As the Department's advocate for the private 
sector, I would like to share with you the three basic roles my Office 
has played in the formation of US-VISIT. These include: engaging the 
private sector; listening to their comments; and responding to their 
concerns.

                      ENGAGING THE PRIVATE SECTOR

    There are roughly 25 million businesses in the United States, and 
in order to reach as many of them as possible, our engagement and 
outreach strategy has been focused on leveraging our relationships 
wherever possible. These relationships include the various trade and 
industry associations who communicate with and educate their members 
and constituents on relevant business issues. By clustering our 
outreach into distinct segments, we have been able to communicate the 
relevant points about US-VISIT to these business groups. Groups such as 
the US Chamber of Commerce, the National Association of Manufacturers, 
Business Executives for National Security, the National Federation of 
Independent Businesses, and the Business Roundtable bring distinct 
voices and valuable perspective to the Department's efforts but these 
voices and perspectives are not alone.
    Throughout Increment 1 of US-VISIT's development and deployment, 
private sector members in the transportation, travel and tourism 
communities were not only impacted the most but had the most to offer 
in terms of input and feedback. Because this input has been vital to 
the Program's success, we have focused much of our outreach on engaging 
these business groups on an on-going basis. In the months leading up to 
deployment of Increment 1 capabilities at airports and seaports, the 
Private Sector Office, in partnership with the US-VISIT Program Office, 
held frequent conference calls with the airline, airport, seaport and 
general travel and tourism community to ensure they were kept up-to-
date and informed on a variety of aspects. The airlines and airports, 
in particular, were integral partners as we planned, piloted and 
launched US-VISIT last year. As you know, Increment 1 was completed on 
time and on budget, and we thank our partners in the private sector for 
helping to make this early success a reality.
    This focus on engagement continues as we prepare to accomplish the 
Program's 2004 milestones. Most notable of these is the on-going 
testing and evaluation of a departure confirmation system at airports 
and seaports, and the rollout of the US-VISIT capability at the 50 
busiest land ports of entry. Our efforts remain focused on engaging the 
trade and industry groups, mostly through meetings with one or more 
associations, as well as speaking engagements and panel discussions at 
town hall forums, conferences and conventions. I know that the US-VISIT 
Program Office maintains an in-depth database to manage the outreach 
and track the responses and feedback from hundreds of international 
organizations, trade groups, non-profit organizations and businesses, 
and communicates with the hundreds who have opted to receive regular 
US-VISIT updates through an e-mail newsletter.

                      LISTENING TO THEIR COMMENTS

    US-VISIT's early focus on actively engaging the private sector has 
created enormous opportunities for the Department and the Private 
Sector Office to hear directly from these most important Program 
stakeholders. We have heard their concerns about our ability to 
implement the Program's measures without sacrificing our freedoms or 
ability to conduct business. One thing I have found in my own personal 
involvement in this Program is that once accurate information is 
introduced to address rumors and misperceptions, concerns and fears 
subside and people once again focus upon our collective need and 
commitment to securing the borders without slowing the flow of commerce 
and people.
    As a result of our listening to our private sector partners, we 
have been able to take the first steps at successfully implementing US-
VISIT at all of our nation's air and sea ports of entry. This has 
created the kind of measure we as a Department need to continue to 
strive for in all of our efforts with the private sector. By 
communicating our commitment to the private sector and their interests 
throughout this effort, the Department and US-VISIT have been able to 
make a significant difference in the way we do business in America. 
From the US Chamber of Commerce to the airline industry, we have heard 
from most every sector in the private sector, each of them saying US-
VISIT has exceeded their expectations.
    While the US-VISIT program has received praise for its execution 
and operation thus far, we have heard some concerns about the land 
border implementation. We have also been fielding questions about the 
departure confirmation system at airports and seaports.
    The area with the most concerns by far is along our nation's 
southwest border. I have been actively engaged in reaching out to these 
border communities, most notably through key groups such as the Border 
Trade Alliance. From both personal and professional experience, I 
understand and empathize with many of the concerns the communities 
along the border have regarding any effort or program that might impact 
border operations and activities. My previous professional experiences 
as both a banker and not-for-profit founder providing job skills 
training and small business development in El Paso and San Antonio, 
Texas have helped me to understand and address the economic and 
personal concerns of the private sector. Furthermore, my experiences in 
living and working in Mexico for six years have provided additional 
perspective. Right now, some people in these affected communities are 
imagining clogged borders and economic disruption. My Office and others 
in the Department have routinely heard, ``Don't slow trade, don't 
separate families, and don't ruin the border.''
    We have no intentions of causing any harm to these border 
communities and take seriously President Bush's and Congress' direction 
that we implement a land border solution that does not slow the free 
flow of trade and people across our borders. While we all understand 
the challenges, it is important that these businesses understand the 
unwavering commitment of this Department to modernize our borders, 
harmonize our systems and create a better, faster, more secure border.
    DHS has been working closely with the US Department of 
Transportation as part of its on-going outreach to private sector 
groups to ensure that we listen to their concerns and apply them to the 
Program's implementation. For example, integrating programs like FAST 
(Free and Secure Trade) with US-VISIT should enable truckers to move 
their goods across the border faster than they do today.

                 RESPONDING TO PRIVATE SECTOR CONCERNS

    Perhaps the most important thing DHS has done to respond to private 
sector concerns is to engage the brightest minds from the business 
community to develop the optimum solution for US-VISIT. We heard and 
acted upon those concerns during the Program's kick-off this year. 
Rather than start the US-VISIT effort on January 1st at the height of 
holiday travel, the Program was initiated on January 5, 2004, allowing 
everyone a degree or two of flexibility.
    Thanks to a combination of policy and technology solutions, we are 
now starting to paint a very new picture of the border, one that 
includes faster travel without compromising security. In the Private 
Sector Office's quest to communicate the truth about US-VISIT--at air, 
sea and land ports of entry--we are seeing that people can now begin to 
visualize this reality. This reality can only happen through continued 
and active engagement with the Department's various public and private 
sector partners. By working together, we can all share with one another 
our commitment to keeping America's doors open and our nation secure.
    As the US-VISIT Program continues to be implemented, the Private 
Sector Office, in partnership with the Department's and Program's 
leaders, will continue to identify ways to actively engage the private 
sector. As our partners in securing our homeland, the private sector 
should know at all times that the Department hears their voices and 
believes their opinions matter. As their advocate within the 
Department, my staff and I have pledged to use every tool available to 
us to demonstrate to them and to all others our commitment to use 21st 
century technology and innovation to create a 21st century border. With 
the guidance and assistance of the Members of this Committee and the 
Congress I am confident that we will be successful in that effort.
    I thank the Members for allowing me to share my comments today and 
I look forward to addressing any questions that you might have.

    Mr. Hostettler. Thank you, Mr. Martinez-Fonts.
    Mr. Hite, the Chair recognizes you for 5 minutes.

STATEMENT OF RANDOLPH C. HITE, DIRECTOR, INFORMATION TECHNOLOGY 
ARCHITECTURE AND SYSTEMS ISSUES, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Hite. Thank you, Mr. Chairman.
    As we have previously reported, the immense importance of 
US-VISIT is undeniable. But as is the importance of US-VISIT, 
the need to manage it is equally important. With the recent 
deployment of the first increment, the time is right to examine 
the program's management, and I commend you for holding this 
hearing. In addition, I would like to thank Congresswoman 
Jackson Lee for the invitation to participate today and note 
that my written statement draws heavily from our two issued 
reports on US-VISIT.
    In addition, I'd note that we have concluded audit work 
recently for the Appropriations Committees that build on these 
issued reports, and at their direction my written statement 
does not include the results of that work. However, they have 
permitted me to share this information orally.
    In summary, my testimony makes two primary points.
    Point 1, US-VISIT is a large, complex, expensive program 
aimed at supporting important missions: border security, 
privacy protection, immigration, trade and travel. In addition, 
the program's scope touches multiple agencies, and estimates of 
its cost through 2004 reach well into the billions of dollars. 
Just by virtue of what US-VISIT is and is to be, it carries an 
appreciable level of risk with it.
    Point number 2, large, complex, expensive programs and, 
thus, inherently risky programs, like US-VISIT, should be able 
to positively answer two basic questions. Question 1, are we 
doing the right thing? Question 2, are we doing it the right 
way?
    To be the right thing, which is Question 1, a program needs 
to be justified by sufficient fact-based, verifiable analysis 
showing that the program, as it is defined, including near-term 
increments, will produce mission value commensurate with 
expected costs.
    To be done the right way, which is Question 2, a program 
needs to be executed effectively, which means that it needs to 
employ the necessary mix of people, processes, and tools to 
reasonably ensure that promised program capabilities and 
expected mission value are delivered on time and within budget.
    The answer to Question 1--Are we doing the right thing?--is 
not clear at this juncture. The current plan is to deliver US-
VISIT capabilities in four increments, the first three of which 
are intended to be interim solutions, with the fourth being a 
more strategic, yet-to-be-defined permanent solution. However, 
DHS has not yet identified the tangible, measurable benefits 
that can be expected from the interim solutions, and it has not 
estimated costs associated with these interim solution.
    For large and complex programs that involve developing and 
implementing many things over many years, it is the best 
practice to break the program into smaller incremental parts 
and to economically justify the parts before investing 
significant resources in each. Without doing so, an 
organization risks learning too late whether interim solutions 
were a prudent use of resources.
    The answer to Question 2--Are we doing it the right way?--
is clear. Unfortunately, the answer is that US-VISIT does not 
yet have in place and functioning the kind of industrial-
strength program management capabilities to include people, 
processes, and tools that it needs. For instance, program 
management processes have not been defined, adequate staff have 
not been put in place to implement, and tools have not been 
established to support such things as effective acquisition 
planning, requirements development and management, contract 
tracking and oversight, test and evaluation management, and 
configuration management.
    The absence of these capabilities was evident on Increment 
1 where neither system testing nor the change control aspect of 
configuration management was effectively managed. For example, 
Increment 1 test execution preceded the development of test 
plans, test plans were missing important content, and testing 
was not finished before Increment 1 began operating.
    Our experience in reviewing other large and complex IT 
programs has shown that over the life of a program, this kind 
of go, get ready, get set approach ultimately will result in 
taking more time and money to implement less capability than 
promised.
    Our position is that these two points together paint a 
picture of a program at risk, and to address these risks, we 
have made a number of recommendations, examples of which are 
provided in my written statement, and additional 
recommendations will be in our soon-to-be-released report to 
the Appropriations Committees.
    To DHS' credit, it has agreed with these recommendations, 
and it has committed to implementing them. Progress to date has 
been slow, and this is troubling because most of these 
recommendations are aimed at correcting fundamental limitations 
in the ability to manage the program in a way that reasonably 
ensures success.
    Before concluding, I would be remiss if I did not say that, 
despite the management challenges that face US-VISIT, the first 
increment was deployed and is operating largely as planned, and 
in my view, this is owing to the yeoman efforts of DHS and 
contractor staff, who deserve credit for their hard work, 
dedication, and commitment. However, reliance on a people 
effort alone cannot reasonably ensure program success. Rather, 
the more tried and proven approach is to take the necessary 
steps and apply the necessary resources to ensure that US-
VISIT's defined increments are the right thing and are done the 
right way.
    This concludes my statement, and I'd be happy to answer any 
questions you have.
    [The prepared statement of Mr. Hite follows:]

                 Prepared Statement of Randolph C. Hite

    Mr. Chairman and Members of the Subcommittee:
    We appreciate the opportunity to participate in the Subcommittee's 
hearing on US-VISIT (the United States Visitor and Immigrant Status 
Indicator Technology), a large, complex program that is intended to 
achieve a daunting set of goals: it is to enhance homeland security and 
the integrity of the U.S. immigration system, and at the same time it 
is to facilitate legitimate border crossing and protect privacy. To 
achieve these goals, US-VISIT relies on information technology, as well 
as people, processes, and facilities.
    The genesis of US-VISIT was in 1996, when the Congress passed 
legislation that directed the former Immigration and Naturalization 
Service (INS) to develop a system to monitor the entry and exit of 
foreign nationals visiting this country.\1\ As a result of this and 
later related legislative direction,\2\ efforts were begun in 2002 to 
develop the system now known as US-VISIT. Subsequently, INS was merged 
into the Department of Homeland Security (DHS), which is now 
responsible for developing and implementing the US-VISIT program.
---------------------------------------------------------------------------
    \1\ Illegal Immigration Reform and Immigrant Responsibility Act of 
1996, Pub. L. 104-208 (Sept. 30, 1996).
    \2\ Immigration and Naturalization Service Data Management 
Improvement Act of 2000, Pub. L. 106-215 (June 15, 2000); Visa Waiver 
Permanent Program Act, Pub. L. 106-396 (Oct. 30, 2000). USA PATRIOT 
Act, Pub. L. 107-56 (Oct. 26, 2001); Aviation and Transportation 
Security Act, Pub. L. 107-71 (Nov. 19, 2001); Enhanced Border Security 
and Visa Entry Reform Act of 2002, Pub. L. 107-173 (May 14, 2002).
---------------------------------------------------------------------------
    In the last three appropriations acts governing the development and 
implementation of US-VISIT,\3\ the Congress prohibited the INS, and 
later DHS, from obligating funds until the agency submitted to the 
Senate and House Committees on Appropriations expenditure plans that 
met several conditions, including being reviewed by GAO. We have 
accordingly issued two reports on US-VISIT \4\ and will shortly be 
issuing a third to the appropriations committees. All three reports 
were based on work performed in accordance with generally accepted 
government auditing standards. My testimony today is based on our two 
published reports and on more current public information on the program 
since the reports were issued.
---------------------------------------------------------------------------
    \3\ 2002 Supplemental Appropriations Act for Further Recovery from 
and Response to Terrorist Attacks on the United States, Pub. L. 107-206 
(Aug. 2, 2002); Consolidated Appropriations Resolution, 2003, Pub. L. 
108-7 (Feb. 20, 2003); Department of Homeland Security Appropriations 
Act, 2004, Pub. L. 108-90 (Oct. 1, 2003).
    \4\ U.S. General Accounting Office, Homeland Security: Risks Facing 
Key Border and Transportation Security Program Need to Be Addressed, 
GAO-03-1083 (Washington, D.C.: Sept. 19, 2003); Information Technology: 
Homeland Security Needs to Improve Entry Exit System Expenditure 
Planning, GAO-03-563 (Washington, D.C.: June 9, 2003).
---------------------------------------------------------------------------
                            RESULTS IN BRIEF

    The overall message of our testimony today is that the US-VISIT 
program is risky, both because of the type of program it is and because 
of the way it is being managed. US-VISIT is a large, complex, and 
expensive program aimed at supporting a multifaceted mission-critical 
area; thus, it is an intrinsically challenging effort. Several aspects 
of the program increase the risk that it will not meet its goals or its 
cost, schedule, and performance commitments:

        <bullet>  Multifaceted, critical mission. The program aims to 
        prevent the entry of persons who pose a threat to the United 
        States. Besides this critical security mission, the program 
        also aims to achieve law enforcement goals regarding visa 
        violations, while facilitating legitimate trade and travel and 
        adhering to U.S. privacy laws and policies.

        <bullet>  Large and complex scope. Controlling the pre-entry, 
        entry, status, and exit of millions of travelers is a large and 
        complex process.

        <bullet>  Challenging milestones. Progress and current status 
        of the program make it difficult to satisfy legislatively 
        mandated milestones: for example, that US-VISIT be implemented 
        at all ports of entry by December 31, 2005.\5\
---------------------------------------------------------------------------
    \5\ Immigration and Naturalization Service Data Management 
Improvement Act, 2000, Pub. L. 106-215 (June 15, 2000).

        <bullet>  Significant potential cost. In February 2003, DHS 
        estimated that the program would cost $7.2 billion through 
        fiscal year 2014, but this estimate did not include all costs 
---------------------------------------------------------------------------
        and underestimated some others.

    Additionally, several factors related to the program's management 
increase the risk of not achieving program goals or not delivering 
program capabilities on time and within budget. Our imminent report for 
the appropriations committees will discuss each of these factors, 
including why each is still an area of risk. Examples of the factors 
that we have reported on are as follows:

        <bullet>  Problems with existing systems. The program is to 
        rely initially on existing systems with reported problems that 
        could limit US-VISIT performance.

        <bullet>  Program management capability. The program office was 
        not adequately staffed, roles and responsibilities had not been 
        clearly defined, and acquisition management processes were not 
        yet established.

        <bullet>  Near-term facilities solutions. Interim facility 
        planning for high-volume land ports of entry must satisfy 
        requirements that are both demanding and based on assumptions 
        that, if altered, could significantly affect facility plans.

        <bullet>  Mission value of increments. The benefits versus 
        costs were not yet known of the interim versions (or 
        increments) of the program that are being implemented while the 
        final version is being developed.

    Our experience in reviewing large, complex, information-technology-
dependent programs in other federal agencies has shown that such 
program management weaknesses typically result in these programs 
falling short of expectations. Accordingly, we have made several 
recommendations regarding the US-VISIT program to address these 
weaknesses and risks.

                               BACKGROUND

    The US-VISIT program is a governmentwide endeavor intended to 
enhance national security, facilitate legitimate trade and travel, 
contribute to the integrity of the U.S. immigration system, and adhere 
to U.S. privacy laws and policies by

        <bullet>  collecting, maintaining, and sharing information on 
        certain foreign nationals who enter and exit the United States;

        <bullet>  identifying foreign nationals who (1) have overstayed 
        or violated the terms of their visit; (2) can receive, extend, 
        or adjust their immigration status; or (3) should be 
        apprehended or detained by law enforcement officials;

        <bullet>  detecting fraudulent travel documents, verifying 
        traveler identity, and determining traveler admissibility 
        through the use of biometrics; and

        <bullet>  facilitating information sharing and coordination 
        within the border management community.

    The program involves interdependencies among people, processes, 
technology, and facilities, as shown in Figure 1.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Within DHS, organizational responsibility for the US-VISIT program 
lies with the Border and Transportation Security Directorate. In July 
2003, DHS established a US-VISIT program office with responsibility for 
managing the acquisition, deployment, operation, and sustainment of the 
US-VISIT system and supporting people (e.g., inspectors), processes 
(e.g., entry exit policies and procedures), and facilities (e.g., 
inspection booths).
    DHS plans to deliver US-VISIT capability incrementally. Currently, 
it has defined four increments, with Increments 1 through 3 being 
interim or temporary solutions, and Increment 4 being the yet-to-be-
defined end vision for US-VISIT. Increments 1 through 3 include the 
interfacing and enhancement of existing system capabilities and the 
deployment of these capabilities to air, sea, and land ports of entry 
(POE).

        1.  The first increment includes the electronic collection and 
        matching of biographic and biometric information at all major 
        air and some sea POEs for selected foreign travelers with non-
        immigrant visas.\6\ Increment 1 entry capability was deployed 
        to 115 airports and 14 seaports on January 5, 2004. Increment 1 
        exit capability was deployed as a pilot to two POEs on January 
        5, 2004--one airport and one seaport.\7\
---------------------------------------------------------------------------
    \6\ Classes of travelers that are not subject to US-VISIT are 
foreign nationals admitted on A-1, A-2, C-3 (except for attendants, 
servants, or personal employees of accredited officials), G-1, G-2, G-
3, G-4, NATO-1, NATO-2, NATO-3, NATO-4, NATO-5, or NATO-6 visas, unless 
the Secretary of State and the Secretary of Homeland Security jointly 
determine that a class of such aliens should be subject to the rule; 
children under the age of 14; and persons over the age of 79.
    \7\ The Miami Royal Caribbean seaport and the Baltimore/Washington 
International Airport.

        2.   The second increment is divided into two parts--2A and 2B. 
        Increment 2A is to include the capability to process machine-
        readable visas and other travel and entry documents that use 
        biometric identifiers at all POEs. This increment is to be 
        implemented by October 26, 2004. Increment 2B is to expand the 
        Increment 1 solution for entry to secondary inspection \8\ at 
        the 50 highest volume land POEs by December 31, 2004. According 
        to the US-VISIT Request for Proposal (RFP),\9\ 2B is also to 
        include radio frequency (RF) \10\ capability at the 50 busiest 
        land POEs for both entry and exit processes.
---------------------------------------------------------------------------
    \8\ Secondary inspection is used for more detailed inspections that 
may include checking more databases, conducting more intensive 
interviews of the individual, or both.
    \9\ In November 2003, DHS issued as planned a Request for Proposal 
(RFP) for a prime contractor for US-VISIT work beyond Increment 2A.
    \10\ RF technology would require proximity cards and card readers. 
RF readers read the information contained on the card when the card is 
passed near the reader, and could be used to verify the identity of the 
card holder.
---------------------------------------------------------------------------

        3.  Increment 3 is to expand the 2B capability to the remaining 
        115 land POEs. It is to be implemented by December 31, 2005.

        4.  Increment 4 is the yet-to-be-defined end vision of US-
        VISIT, which will likely consist of a series of capability 
        releases.

    DHS plans to award a single, indefinite-delivery/indefinite-
quantity \11\ contract to a prime contractor for integrating existing 
and new business processes and technologies. DHS plans to award the 
contract by May 2004. According to the RFP, the prime contractor's 
scope of work is to include, but is not limited to, Increments 2B, 3, 
and 4.
---------------------------------------------------------------------------
    \11\ An indefinite-delivery/indefinite-quantity contract provides 
for an indefinite quantity, within stated limits, of supplies or 
services during a fixed period of time. The government schedules 
deliveries or performance by placing orders with the contractor.
---------------------------------------------------------------------------
                      US-VISIT IS INHERENTLY RISKY

    By definition, US-VISIT is a risky undertaking because it is to 
perform a critical mission, its scope is large and complex, it must 
meet a demanding implementation schedule, and its potential cost is 
enormous.

Program Supports Multifaceted, Critical Mission
    In announcing the US-VISIT system, the DHS Under Secretary for 
Border and Transportation Security stated that the system's goal is to 
``give America a 21st Century `smart border'--one that speeds through 
legitimate trade and travel, but stops terrorists in their tracks.'' 
Achieving these goals is daunting: the United States shares over 7,500 
miles of land border with Canada and Mexico, and it has approximately 
95,000 miles of shoreline and navigable waterways to protect. In fiscal 
year 2002, there were about 279 million inspections of foreign 
nationals at U.S. POEs. In these circumstances, preventing the entry of 
persons who pose a threat to the United States cannot be guaranteed, 
and the missed entry of just one can have severe consequences. 
Relatedly, US-VISIT is to achieve the important law enforcement goal of 
identifying those among these millions of visitors each year who 
overstay or otherwise violate the terms of their visas.
    Complicating achievement of these security and law enforcement 
goals are other key US-VISIT goals: facilitating the movement of 
legitimate trade and travel through the POEs and providing for 
enforcement of U.S. privacy laws and regulations.

Scope Is Large and Complex
    US-VISIT is to provide for the interfacing of a number of existing 
systems. It is also to support and refine a large and complex 
governmentwide process involving multiple departments and agencies. 
This process involves the pre-entry, entry, status, and exit of 
hundreds of millions of foreign national travelers to and from the 
United States at over 300 air, sea, and land POEs.
    The interfaced systems included in Increment 1 are

        <bullet>  Arrival Departure Information System (ADIS), a 
        database that stores traveler arrival and departure data 
        received from air and sea carrier manifests and that provides 
        query and reporting functions;

        <bullet>  Advance Passenger Information System (APIS), a system 
        that captures arrival and departure manifest information 
        provided by air and sea carriers;

        <bullet>  Interagency Border Inspection System (IBIS), a system 
        that maintains lookout data, interfaces with other agencies' 
        databases, and is currently used by inspectors at POEs to 
        verify traveler information and modify data;

        <bullet>  Automated Biometric Identification System (IDENT), a 
        system that collects and stores biometric data about foreign 
        visitors;

        <bullet>  Student Exchange Visitor Information System (SEVIS), 
        a system that contains information on foreign students;

        <bullet>  Computer Linked Application Information Management 
        System (CLAIMS 3), a system that contains information on 
        foreign nationals who request benefits, such as change of 
        status or extension of stay; and

        <bullet>  Consular Consolidated Database (CCD), a system that 
        includes information on whether a visa applicant has previously 
        applied for a visa or currently has a valid U.S. visa.

    Figure 2 shows these systems and their relationships.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    In addition to integrating numerous systems, US-VISIT also involves 
complex processes governing the stages of a traveler's visit to the 
United States: pre-entry, entry, status management, and exit. These 
processes for Increment 1 are as follows:
    Pre-entry process. Pre-entry processing begins with initial 
petitions for visas. When the Department of State issues the travel 
documentation, biographic (and in some cases biometric) data are 
collected and made available to border management agencies. The 
biometric data are transmitted from State to DHS, where the prints are 
run against the US-VISIT IDENT biometric database to verify identity 
and to check the biometric watchlist. The results of the biometric 
check are transmitted back to State.
    Commercial air and sea carriers are required by law to transmit 
crew and passenger manifests to appropriate immigration officers before 
arriving in the United States.\12\ These manifests are transmitted 
through APIS. The APIS lists are run against the biographic lookout 
system and identify those arrivals who have biometric data available. 
In addition, POEs review the APIS list in order to identify foreign 
nationals who need to be scrutinized more closely.
---------------------------------------------------------------------------
    \12\ Enhanced Border Security and Visa Entry Reform Act of 2002, 
Pub. L. 107-173 (May 14, 2002).
---------------------------------------------------------------------------
    Entry process. When a foreign national arrives at a POE's primary 
inspection booth, biographic information, such as name and date of 
birth, is displayed on the bottom half of a computer workstation 
screen, along with a photograph obtained from State's CCD. The 
inspector at the booth scans the foreign national's fingerprints (left 
and right index fingers) and takes a digital photograph. This 
information is forwarded to the IDENT database, where it is checked 
against stored fingerprints in the IDENT lookout database. If the 
foreign national's fingerprints are already in IDENT, the system 
performs a match (a comparison of the fingerprint taken during the 
primary inspection to the one on file) to confirm that the person 
submitting the fingerprints is the person on file. During this process, 
the inspector also questions the foreign national about the purpose of 
his or her travel and length of stay.
    Status management process. The status management process manages 
the foreign national's temporary presence in the United States, 
including the adjudication of benefits applications and investigations 
into possible violations of immigration regulations. ADIS matches entry 
and exit manifest data to ensure that each record showing a foreign 
national entering the United States is matched with a record showing 
the foreign national exiting the United States. ADIS receives status 
information from CLAIMS 3 and SEVIS on foreign nationals.
    Exit process. The exit process includes the carriers' submission of 
electronic manifest data to IBIS/APIS. This biographic information is 
passed to ADIS, where it is matched against entry information. At the 
two POEs where the exit pilot is being conducted, foreign nationals use 
a self-serve kiosk where they are prompted to scan their travel 
documentation and provide their fingerprints (right and left index 
fingers). This departure record is then stored in ADIS (along with the 
person's arrival record) and used to verify if a foreign national has 
complied with the admission terms of his or her visa.

Milestones Are Challenging
    Key US-VISIT milestones are legislatively mandated. For example, 
the Immigration and Naturalization Service Data Management Improvement 
Act of 2000 \13\ requires that US-VISIT be implemented at all air and 
sea POEs by December 31, 2003; at the 50 highest volume land POEs by 
December 31, 2004; and at all remaining POEs by December 31, 2005.
---------------------------------------------------------------------------
    \13\ Pub. L. 106-215 (June 15, 2000).
---------------------------------------------------------------------------
    Because of limited progress during the 7 years following the 
legislation that originated the entry exit system requirement, DHS 
acknowledged that it could not complete permanent solutions in these 
time frames, and thus it planned to implement interim (temporary) 
solutions. For example, Increments 1 through 3 include the interfacing 
of existing systems and the design and construction of interim 
facilities at land POEs. Further, DHS officials have stated that it 
will be difficult to develop and implement even the interim solutions 
at some of the highest volume land POEs (such as San Ysidro, 
California; Otay Mesa, California; and Laredo, Texas) by December 31, 
2004, because even minor changes in the inspection time can greatly 
affect the average wait time at these high-volume POEs. Moreover, 
achievement of interim solutions is based on assumptions that, if 
changed, could significantly affect facility and staffing plans.

Potential Cost Is Significant
    Despite DHS's estimate in February 2003, that the total overall 
cost of the US-VISIT program would be about $7.2 billion through fiscal 
year 2014, the potential governmentwide cost of US-VISIT over just a 
10-year period could be about twice as much. Although the DHS estimate 
included a wide range of costs, it omitted some costs and may have 
understated others. The estimate included

        <bullet>  system investment costs, such as information 
        technology hardware and communications infrastructure, software 
        enhancements, and interfaces;

        <bullet>  the cost of facilities and additional inspectors;

        <bullet>  system and facilities operation and maintenance 
        costs;

        <bullet>  the cost of planning, designing, and constructing 
        permanent facilities, which according to DHS was about $2.9 
        billion \14\ (this estimate was based on the assumptions that 
        (1) no additional traffic lanes would be required to support 
        the entry processes and (2) exit facilities would mirror entry 
        facilities--i.e., that a land POE with 10 entry traffic lanes 
        would require 10 exit traffic lanes);
---------------------------------------------------------------------------
    \14\ The $2.9 billion is a parametric cost estimate. Parametric 
cost estimating is a technique used in the planning, budgeting, and 
conceptual stages of projects. This technique expedites the development 
of order of magnitude benchmark estimates when discrete estimating 
techniques are not possible or would require inordinate amounts of time 
and resources to produce similar results. Estimates such as this can 
vary 30 to 50 percent.

        <bullet>  costs to design and construct building space to house 
---------------------------------------------------------------------------
        additional computer equipment and inspectors; and

        <bullet>  costs for highway reconfiguration at land POEs.

    However, the estimate did not include the costs to design and 
construct interim facilities at land POEs. DHS officials estimated that 
the cost of constructing the interim facilities at the 50 highest 
volume POEs was about $218 million. Moreover, the estimate is based on 
assumptions that, if changed, could significantly affect, for example, 
land POE facility and staffing needs.
    Finally, although the estimate did include the cost of implementing 
biometrics, these costs are understated, because they did not include, 
for example, State Department costs. Specifically, in November 
2002,\15\ we reported that a rough order of magnitude estimate of the 
cost to implement visas with biometrics would be between $1.3 billion 
and $2.9 billion initially and between $0.7 and $1.5 billion annually 
thereafter. This estimate is based on certain assumptions, including 
that all current visa-issuing embassies and consulates will be equipped 
to collect biometrics from visa applicants. Assuming that biometrics 
are implemented by December 2004, this means that the recurring cost of 
having biometric visas through DHS's fiscal year 2014 life cycle period 
would be between $7 and $15 billion. In contrast, DHS's estimate for 
the entire program through fiscal year 2014 was about $7.2 billion.
---------------------------------------------------------------------------
    \15\ U.S. General Accounting Office, Technology Assessment: Using 
Biometrics for Border Security, GAO-03-174 (Washington, D.C.: Nov. 15, 
2002).
---------------------------------------------------------------------------
               MANAGEMENT OF US-VISIT SYSTEM ACQUISITION

    Compounding the risk factors inherent in the scale and significance 
of the US-VISIT program are a number of others that can be attributed 
to its state of management and its acquisition approach. As described 
in our September 2003 report on US-VISIT, these include relying on 
existing systems to provide the foundation for the first three program 
increments (and thus having to accept the performance limitations of 
these existing systems), not having mature program management 
capabilities, not having fully defined near-term facilities solutions, 
and not knowing the mission value that is to be derived from US-VISIT 
increments. Our recently completed audit work for the appropriations 
committees addressed each of these factors, which our next report will 
discuss, including why each is still an area of risk.

Problems with Existing Systems
    The system performance of the interim releases of US-VISIT 
(Increments 1, 2, and 3) will depend largely on the performance of the 
existing systems that are to be interfaced to create the overall 
system. Thus, US-VISIT system availability and associated downtime, for 
example, will be constrained by the availability of the interfaced 
systems. In this regard, some of the existing systems have had 
availability and reliability problems that could limit US-VISIT 
performance. Two examples are SEVIS and CLAIMS 3.
    Problems have been identified with the availability and reliability 
of SEVIS, the system designed to manage and monitor foreign students in 
the United States. For example, in April 2003, the Justice Inspector 
General reported that many users had difficulty logging on to the 
system, and that as the volume of users grew, the system became 
increasingly sluggish.\16\ According to other reports, university 
representatives complained that it was taking hours to log on to the 
system and to enter a single record, or worse, that the system accepted 
the record and later deleted it. We are required to report to the House 
and Senate Appropriations Committees by April 1, 2004, on SEVIS 
performance, among other things.\17\
---------------------------------------------------------------------------
    \16\ Statement of Glenn A. Fine, Inspector General, U.S. Department 
of Justice, ``Implementation of the Student and Exchange Visitor 
Information System (SEVIS)'' (Apr. 2, 2003).
    \17\ H.R. Conf. Rep. No. 108-280, at 32 (2003).
---------------------------------------------------------------------------
    We also reported in May 2001 \18\ that CLAIMS 3 was unreliable. 
This system contains information on foreign nationals who request 
benefits and is used to process benefit applications other than 
naturalization. Specifically, we reported that INS officials stated 
that the system was frequently unavailable and did not always update 
and store important case data when field offices transferred data from 
the local system to the mainframe computer.
---------------------------------------------------------------------------
    \18\ U.S. General Accounting Office, Immigration Benefits: Several 
Factors Impede Timeliness of Application Processing, GAO-01-488 
(Washington, D.C.: May 4, 2001).
---------------------------------------------------------------------------
Program Management Capability
    Our experience with major modernization programs, like US-VISIT, 
shows that they should be managed formally, which includes establishing 
a program office that (1) is adequately staffed (both in numbers and 
skill levels), (2) has clearly defined its staff's roles and 
responsibilities, and (3) is supported by rigorous and disciplined 
acquisition management processes.
    DHS established a US-VISIT program office in June 2003 \19\ and 
determined that this office's staffing needs were, in all, 115 
government and 117 contractor personnel to perform key acquisition 
management functions. These functions fall into categories described by 
the Software Engineering Institute's Software Acquisition Capability 
Maturity Model (SA-CMM ),\20\ which defines a suite of key acquisition 
process areas that are necessary for rigorous and disciplined 
management of a system acquisition program. These process areas include 
acquisition planning, requirements development and management, project 
management, solicitation, contract tracking and oversight, evaluation, 
and transition to support.
---------------------------------------------------------------------------
    \19\ The predecessor program office for the entry exit program was 
established within the former INS in March 2002.
    \20\ Carnegie Mellon Software Engineering Institute, Software 
Acquisition Capability Maturity Model, Version 1.03 (March 2002).
---------------------------------------------------------------------------
    Our latest report stated that the US-VISIT program's staffing 
levels were far below its stated needs. Moreover, specific roles and 
responsibilities had not been defined beyond general statements. 
Further, the program had not yet defined plans and associated time 
frames for achieving needed staffing levels and defining roles, 
responsibilities, and relationships. According to the Program Director, 
positions were being filled with detailees from various DHS component 
organizations.
    Additionally, although the approved program office structure 
provided for positions to perform the SA-CMM  key process areas 
(including acquisition planning, requirements development and 
management, project management, and contract tracking and oversight), 
none of the process areas were defined and implemented. Until they are, 
the program office must rely on the knowledge and skills of its 
existing staff to execute these important acquisition functions.
    According to the Program Director, needed program staffing and key 
process areas were not in place because the program was just getting 
off the ground, and it would take considerable time to establish a 
fully functioning and mature program management capability. Until the 
program office is adequately staffed, positional roles and 
responsibilities are clearly defined and understood, and rigorous and 
disciplined acquisition process controls are defined, understood, and 
followed, DHS's efforts to acquire, deploy, operate, and maintain 
system capabilities will be at risk of not producing promised 
performance levels, functionality, and associated benefits on time and 
within budget.

Near-Term Facilities Solutions
    Work by the Data Management Improvement Act Task Force has shown 
that existing facilities do not adequately support the current entry 
exit process at land POEs. In particular, more than 100 land POEs have 
less than 50 percent of the required capacity to support current 
inspection processes and traffic levels.\21\ As a result, as part of 
US-VISIT (Increment 2), DHS plans to construct interim facilities at 
about 40 of the 50 highest volume land POEs by December 31, 2004, and 
construct interim facilities at the remaining portion of these 50 POEs 
by February 2005.
---------------------------------------------------------------------------
    \21\ Data Management Improvement Act Task Force, First Annual 
Report to Congress (Washington, D.C.: December 2002).
---------------------------------------------------------------------------
    According to DHS officials, the department plans to design and 
construct interim facilities to (1) support the US-VISIT inspection 
process, technology, and staff requirements and (2) meet current 
traffic wait time requirements at each land POE. To plan for the design 
and construction of interim facilities that meet these requirements, 
DHS modeled various inspection process and facilities scenarios to 
define what inspection process to follow and what interim facilities to 
construct. The modeling was based on two key assumptions: (1) the 
current staffing level and (2) the current number of inspection booths 
staffed for each POE. According to preliminary DHS modeling exercises, 
small incremental increases in average inspection times at some high-
volume land POEs could significantly increase average wait times. 
Moreover, any changes to decisions about which foreign travelers are 
subject to US-VISIT could significantly affect these assumptions and 
thus near-term facility requirements.

Mission Value of Increments
    OMB Circular Number A-11, part 7, requires that investments in 
major systems be implemented incrementally, with each increment 
delivering tangible and measurable benefits. Incremental investment 
involves justifying investment in each increment on the basis of 
benefits, costs, and risks. Although DHS is pursuing US-VISIT 
incrementally, it has not defined incremental costs and benefits to 
justify its proposed investments in each increment.
    In the case of Increment 1, DHS' 2003 expenditure plan stated that 
this increment would provide ``immediate benefits,'' but it did not 
describe them. Instead, it described capabilities to be provided, such 
as the ability to determine whether a foreign national should be 
admitted and to perform checks against watch lists. It did not describe 
in meaningful terms the benefits that are to result from implementation 
of these capabilities (e.g., X percent reduction in inspection times or 
Y percent reduction in false positive matches against watch lists).
    Also, DHS did not identify the estimated cost of Increment 1. The 
Program Director told us that the $375 million requested in the 2003 
plan included not only all the funding required for Increment 1, but 
also funding for later increments. However, the plan did not separate 
the funds by increment, and program officials did not provide this 
information.
    While DHS developed a benefits and cost analysis for the former 
entry exit program in February 2003, this analysis had limitations, 
such as an absence of meaningful benefit descriptions. Program 
officials acknowledged that this analysis is out of date and is not 
reflective of current US-VISIT plans. According to these officials, an 
updated analysis will be issued in the very near future.
    Without a reliable understanding of whether near-term increments 
will produce mission value justifying its costs and whether known risks 
can be effectively mitigated, DHS is investing in and implementing 
near-term solutions that have not been adequately justified.
    To the credit of the hard-working and dedicated staff working on 
the program, an initial US-VISIT operating capability was deployed to 
major air and selected sea POEs at the beginning of this year. However, 
the US-VISIT program still faces the risk factors described in this 
testimony, each of which will be discussed in our soon to be released 
report. To address these risk factors, our published reports presented 
several recommendations regarding the US-VISIT program, including

        <bullet>  ensure that future expenditure plans fully disclose 
        US-VISIT system capabilities, schedule, cost, and benefits to 
        be delivered;

        <bullet>  determine whether proposed US-VISIT increments will 
        produce mission value commensurate with costs and risks;

        <bullet>  define performance standards for each increment that 
        are measurable and reflect the limitations imposed by relying 
        on existing systems;

        <bullet>  develop a risk management plan and regularly report 
        all high risks;

        <bullet>  develop and implement a plan for satisfying key 
        acquisition management controls and implement these in 
        accordance with Software Engineering Institute guidance;

        <bullet>  ensure that human capital and financial resources are 
        provided to establish a fully functional and effective US-VISIT 
        program office;

        <bullet>  define program office positions, roles, and 
        responsibilities; and

        <bullet>  develop and implement a human capital strategy for 
        the program office that provides for staffing positions with 
        individuals who have the appropriate knowledge, skills, and 
        abilities.

    Unless DHS addresses the risk factors described in this testimony, 
successful deployment of US-VISIT increments is doubtful, because 
achieving success will depend too much on heroic efforts by the people 
involved, rather than being the predictable outcome of sound investment 
and acquisition management capabilities.
    Mr. Chairman, this concludes our statement. We would be happy to 
answer any questions that you or members of the committee may have at 
this time.

                      CONTACTS AND ACKNOWLEDGEMENT

    If you should have any questions about this testimony, please 
contact Randolph C. Hite at (202) 512-3870 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="771f1e031205371016185910180159">[email&#160;protected]</a> Other 
major contributors to this testimony included Barbara Collier, Deborah 
Davis, Tamra Goldstein, David Hinchman, and Jessica Waselkow.

    Mr. Hostettler. Thank you, Mr. Hite.
    Before I turn to the Ranking Member for her opening 
statement, I would just like to make a point to the gentleman 
from the Administration. We did not receive testimony, this 
Subcommittee did not receive testimony until 6 p.m. last night, 
well under the 24-hour deadline that we require. We understand 
that while you folks have your testimony available long before 
that, it was at OMB for an extended period of time. We would 
just appreciate it if you could take back the message with you 
that it's very difficult for us to prepare for such an 
important hearing without an understanding of what's going to 
be discussed at this hearing. We thank you very much.
    At this time I would like to turn to the Ranking Member, 
Ms. Jackson Lee, for an opening statement.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, and 
might I join in your commentary dealing with the receipt, the 
timely receipt of testimony, and indicate that, you being very 
kind, I think, in terms of his remarks, I have seen some 
instances in this Committee where a witness was not allowed to 
testify. So I want to associate with both the approach that the 
Chairman took and, as well, the admonition of making sure that 
we have these materials in a timely basis.
    However, let me express my appreciation for all of the 
witnesses. I am in the midst of three Committee hearings at 
this very moment, and I thank you for your indulgence. I may be 
yielding to my distinguished colleague from California if I am 
having to depart.
    But, Mr. Chairman, let me briefly say that I've had the 
privilege and the challenge of seeing in action the prototype 
of the US-VISIT and then actually seeing and standing while the 
system was being utilized both at Miami International Airport 
as part of the Homeland Security CODEL, trying to determine how 
it was affected--being effective, rather, and also at the 
Houston Intercontinental Airport.
    My first comment is to compliment the employees and those 
who are utilizing the system because I believe, Mr. Hite, we 
are not suggesting, as both of us are raising some questions, 
that we believe that the employees that are utilizing the 
system are not doing the very best that they can. So I have--I 
think that the training seems to be moving along and also the 
effort of accommodating the individuals who have to utilize it. 
And so I want to go on record with respect to that, and for 
those employees that may be listening and within the sound of 
my voice, I would welcome any commentary from the field, 
because I have spent time in the field all over the United 
States, to be able to suggest to me otherwise or what they 
might additionally need.
    Let me just note that US-VISIT was launched at 115 airports 
and 14 seaports on January 5, 2004. The stated objective for 
US-VISIT is to enhance the Nation's security while facilitating 
the legitimate travel and trade through our borders. The 
security measures employed by this program begin overseas at 
the U.S. consul offices that issue visas. Digital fingerscans 
are taken at these offices and used to determine whether the 
applicant is on a database of known or suspected criminals or 
terrorists.
    When a foreign visitor with a visa reaches our border and 
seeks admission to the United States, the fingerscans are used 
to verify that the person seeking admission is the same person 
who received the visa, and another check is made for 
information about any involvement in terrorism or crime.
    I have heard positive things about the way the entry 
inspection part of the program is being implemented at 
airports, but the exit part of the program has not been 
developed fully yet. The real test, however, will be 
implementing the program at the land ports of entry.
    In FY 2003, 79 percent of all travelers seeking entry into 
the United States entered at a land port of entry. Land ports 
of entry are more problematic for US-VISIT, which includes the 
southern border as well as the northern border, than airports 
for a number of reasons. Traffic at these crossings consists of 
varying combinations of cars, pedestrians, bicycles, trucks, 
buses, and rail. And for any of you who have not been in 
particular or specifically to the southern border, I invite you 
to do so. It is an interesting challenge.
    Moreover, land ports pose difficult challenges to the 
creation of an automatic alien tracking system due to their 
location, infrastructure, geography, and traffic volume, which 
can vary extensively among ports of entry.
    And might I say, in citing the northern and southern 
border, the issue with that is that we have friends coming over 
the border as well as we may have those who wish to do us ill. 
It is difficult with the US-VISIT process to balance the 
friends versus those who may do us harm.
    Congress has mandated that an automatic entry program be 
implemented at the 50 busiest land ports of entry by December 
31, 2004, all land ports of entry by December 31, 2005. I am 
particularly concerned with the viability of implementing the 
exit check piece of the program. I am also wondering about the 
additional need for staff. The ability to analyze the data at 
the existing facilities at land points may already be 
inadequate. According to a study performed by Data Management 
Improvement Act Task Force, more than a hundred of the land 
ports of entry have less than 50 percent of the required 
capacity to support current inspection processes and traffic. 
And apparently DHS plans to address this problem by 
constructing interim facilities at 50 of the ports.
    I've asked the General Accounting Office to provide a 
witness to this hearing to discuss these and other problems. 
Mr. Hite, the GAO Director of Information Technology 
Architecture and Systems, will tell us about a report issued by 
the GAO on September 2003 which describes the most significant 
challenges to implementing US-VISIT. According to this report, 
which Director Hite will update today, the scope of US-VISIT is 
large and complex. It must meet a demanding implementation 
schedule, and its potential cost is enormous. The report 
indicates that many of the difficulties are inherent to the 
program and cannot be easily changed, but others are 
attributable to an inadequate state of governance and 
management. The report casts doubt on whether US-VISIT will be 
able to measurably and appreciably achieve the Homeland 
Security Department's goal of enhancing national security while 
facilitating legitimate travel and trade.
    Even if the Department of Homeland Security is successful 
in implementing US-VISIT, the program may not make our country 
more secure in any significant way. In 1998, a Senate Judiciary 
Committee report found that implementing an automatic entry 
visit and control system has absolutely nothing to do with 
countering drug trafficking, with halting the entry of 
terrorists into the United States, or with any other illegal 
activity.
    I'm willing to remain open, even with that report, because 
we had since that time 9/11. But I think it is truly important, 
keenly important, that as we represent to the American people 
that we're working to secure the homeland, that we truly have a 
grasp of how best to do it and how to be effective and 
efficient.
    I close by simply saying we know that the securest homeland 
is to keep the terrorists out before they even enter into our 
borders. The question is how best to do it, and that is the 
responsibility of this Committee.
    I thank the distinguished Chairman, and I yield back my 
time.
    Mr. Hostettler. I thank the gentlelady. The Chair will now 
entertain questions.
    First of all, Mr. Jacksta, as you know, 1 week ago there 
was a horrible terrorist bombing in Madrid. The apprehended 
suspects, all of them were not native Spaniards. Can you tell 
us whether these aliens would have been able to enter the U.S. 
had they attempted to?
    Mr. Jacksta. Sir, if we had information that was available 
to the U.S. Government, we would have been able to stop them at 
the border. The reason why we'd be able to do that is that we 
would have received the information regarding the individuals 
who would be on a plane. At the time that they were on that 
plane, we would have done our checks, and we would have had the 
plane met at the time that they arrived in the United States 
and had our inspectors, our anti-terrorism rovers up there and 
would have met the individuals, and at that time take 
appropriate action to address the issue.
    So addressing your question, if the information is 
available to the U.S. Government, we put it into our databases. 
The sharing of information that we currently have in place 
would allow us to identify these individuals and stop them from 
entering the United States.
    Mr. Hostettler. Very good. I understand the visa waiver 
countries can pass through inspections without going through 
US-VISIT. Would this have been the case for Richard Reid, who I 
understand is a British national, and Zacarias Moussaoui, who I 
understand is a French national?
    Mr. Jacksta. What I'd like to express here is that if the 
traveler was coming in and they're from a visa waiver country, 
they would not have been US-VISIT'd. However, when they do 
arrive in the United States, there's a layered approach. As I 
indicated, we have advance information. If we have information 
regarding a specific person, we put it into our databases, and 
we would have identified that individual for an inspection.
    But I think it's also important to note that we do train 
our inspectors in a number of areas--document fraud, 
interviewing techniques--and that training is important to make 
sure that we have a layered approach. We don't count on one 
specific type of tool to identify individuals. We bring it all 
together so that we can respond appropriately.
    In the cases of Mr. Reid, hopefully we would have--if we 
had information, we would have stopped the individual from 
getting on the plane or arriving in the United States. Then we 
could have interviewed him at the time of arrival, and at that 
point, based on the information questioning, hopefully we would 
have been able to identify him as a concern to United States 
security.
    Mr. Hostettler. Thank you.
    Mr. Mocny, as was earlier indicated, the 1996 act initially 
required an entry-exit system to be put in place. Can you 
explain why it has taken so long to implement such an entry-
exit system?
    Mr. Mocny. Thank you for the question. If I can quickly 
just verify or just build upon what Mr. Jacksta said on the 
visa waiver countries, if they're coming under the visa waiver 
program, they would currently be exempt under the process. If 
they come with a visa--a British national or a French national 
coming as a student perhaps--they would have to have a visa. 
They would go through the US-VISIT process. So it's only under 
the 90-day-or-less visa waiver program.
    As to your question, I guess I referenced the last time I 
was in front of this Committee, I can only quote what was 
stated by an Administration official at the time, that there 
was opposition to section 110 at that time, and there was some 
disagreement as how to best implement that program. And so to 
give you kind of an honest answer here, it was--I think many 
who tried to move the program forward perhaps were met with 
some philosophical differences. Again, there was no 9/11, and 
so there was, I think, a debate within both sides of the aisle 
about whether or not this was the best thing to do. And so for 
that reason, a lot of progress was not made, and I can only 
then point to your point, which is after 9/11 and after we 
moved to the Department of Homeland Security, the focus that 
the Secretary put on this program, he made it a number one 
priority for the Administration, so that we were able to meet 
the date that was put in place in 2000, a modified version of 
section 110, which still held us to those dates. We were able 
to meet that date.
    So I think for those reasons we were delayed, we were 
challenged, but we were, thank goodness, able to succeed with 
the first increment of the process.
    Mr. Hostettler. Thank you.
    And then, finally, Mr. Martinez-Fonts, can you describe 
whether US-VISIT has adversely impacted foreign travel to the 
U.S.? And, specifically, has there been any evidence that there 
is a significant reduction in travel to the U.S. after the 
implementation of US-VISIT?
    Mr. Martinez-Fonts. We don't have any solid evidence that 
that has been the case or that has been the cause of it. We 
have a lot of information on the land borders that it will 
create it, but there is really nothing at this point that would 
indicate that, that it has caused any of the downturn in 
travel.
    Mr. Hostettler. Thank you.
    I now turn to the Ranking Member, Ms. Jackson Lee, for 
questions.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    Let me follow the line of reasoning that I offered in my 
opening statement that what we're trying to do is to make this 
better or to really determine, factually determine whether or 
not there are some alternative systems that we should be 
considering.
    Mr. Jacksta, one of the points that I did make in my 
remarks was the issue of staff, and so I would be interested in 
knowing what staff increases are you anticipating to implement 
the US-VISIT program at land ports in particular, and how much 
money are we talking about?
    Mr. Jacksta. At the present time, there is no plans to put 
additional staff specifically for US-VISIT. We're still working 
the process to understand exactly how the outbound process is 
going to work.
    On the inbound side of the house, we believe that we can 
handle the workload that's going to be created on December 
31st. So at the present time, there is no additional staffing 
being put specifically at the land border locations.
    But I think what's important to note is that we are doing a 
couple of other things, and one of the things that we are doing 
is that we are training our inspectors. Remember that on March 
1, 2003, we brought the Immigration and Customs Service 
together, and as a fact, we basically added a larger number of 
inspectors available to do the job at the land port of entries. 
We're training them right now in what we're calling the ``One 
Face at the Border,'' giving them training so that they can do 
both the Customs and Immigration processing. In addition, we're 
giving them additional training so that they'll be able to do 
the full range of the jobs that were normally done by 
Immigration.
    So that's one of the ways that we're going to multiply 
the----
    Ms. Jackson Lee. Training existing inspectors?
    Mr. Jacksta. Yes.
    Ms. Jackson Lee. I'm going to come back to you, Mr. 
Jacksta.
    Mr. Hite, how does that--what does that sound like to you 
in terms of being able to--we like to be called multi-tasked, 
but does that sound reasonable not having an increased number 
of staff for this program and to meet the deadline by the 31st, 
2004, I understand?
    Mr. Hite. Well, certainly for the entry process, which 
involves very few people who are non-immigrant visa holders 
coming in across land borders, and those people will be going 
to secondary, so the expectation is it's not going to be a 
large increase in volume there. However, it does depend on 
certain assumptions as to who will be US-VISIT'd. And it does 
not include, for example, those with border crossing cards, or 
it also includes an assumption that it takes about 15 seconds 
to process someone through US-VISIT, an additional 15 seconds.
    So it depends on the validity of those assumptions, which 
time will tell. The pilot test in Atlanta showed that it 
required an additional 19 seconds as opposed to 15, and 
analyses have showed that a very slight increase in processing 
time then starts to impact wait times in lines.
    So it is not an unreasonable assumption at this point, and 
as this program has evolved over the last year and will evolve 
over this time, as more and more information becomes known and 
decisions get made as to how exactly it's going to be 
implemented in the different ports of entry, then those 
questions will become clearer.
    Ms. Jackson Lee. Let me just say to you that--if you will 
answer this question. You had noted that more than a hundred 
land ports of the city--of entry, of ports of entry have less 
than 50 percent of the required capacity to support current 
inspection processes and traffic levels. So I want you to just 
elaborate on that problem and explain what is needed in this 
regard. And then if Mr. Jacksta could finish, if I can come 
back to him, and I'm going to throw the question out, then you 
can answer.
    You mentioned in your statement that there have been 195 
verified lookout matches using US-VISIT. How many of those 
matches related to suspected persons of terrorists--suspected 
of being terrorists? And then give me your sense and what you 
are doing about the President's representation to President 
Vicente Fox that he's going to have some sort of free-for-all 
down at the southern border? Are you all working on that 
structure? Are we going to be advised as Members of Congress, 
on this Committee or Homeland Security, on where we are on 
that? Mr. Hite, can you just talk about what you were speaking 
about on the 50-percent capacity?
    Mr. Hite. Yes, ma'am. That number, that over a hundred land 
ports of entry have less than 50 percent of the capacity that 
they need, that number came from the DMIA task force. That's 
not the result of our analysis.
    Ms. Jackson Lee. Well, how will you address the problem 
that that poses?
    Mr. Hite. To be honest with you, I don't have an answer to 
that question. It's probably more appropriately posed to the 
DHS witnesses to how they intend to address that.
    Ms. Jackson Lee. And so you have just made--you just will 
continue to make an assessment of the problem?
    Mr. Hite. We will continue to monitor that problem and see 
what's being done to address that limitation?
    Ms. Jackson Lee. But it is one that you have noted?
    Mr. Hite. Yes, ma'am.
    Ms. Jackson Lee. Mr. Jacksta, what about it, how would you 
address that, but also if you will explain about the 195 and 
the US-VISIT?
    Mr. Jacksta. Okay. One of the things, first of all, the 
easy question is that as of right now the 195 have not been--
none of them have been identified as specific terrorists.
    Ms. Jackson Lee. All right. Thank you.
    Mr. Jacksta. But these were individuals that were of real 
concern, and obviously when they get into the United States, 
they could be a threat at any given time. So although we 
couldn't relate them to terrorists right now, clearly we want 
to stop them at the border.
    Regarding the issue of capacity as we move forward with the 
land border locations, obviously that's a concern to CBP, to 
DHS. We want to make sure that we have the capacity to make 
sure that trade and travel doesn't get inhibited by the 
program. We're working very closely with the US-VISIT office to 
make sure that any type of issues that do come up get addressed 
so that when we move the program out, we're ensuring that we're 
working together to address both the facilitation side of the 
house as well as the enforcement side. And I think that before 
we do move out, we will make sure that we address those 
concerns and see if the areas that we're moving to have that 
capacity, and if not, what do we need to do to make sure that 
the capacity is there to do the job that's necessary for 
protecting our borders?
    Ms. Jackson Lee. Could you answer the President's proposal?
    Mr. Jacksta. I think I would defer to Bob on that one in 
the sense that we are working with the foreign governments, the 
Administration is working with the foreign governments to try 
to address the whole issue of the land border, making sure we 
have a number of different initiatives. The Secretary has been 
involved with the Mexican Government as well as the Canadian 
Government on these issues. And I know that there's a number of 
discussions to make sure that once again we continue with the 
facilitation, and at the same time the enforcement side of the 
house. And I think we can achieve that working together and 
having a good working relationship.
    Mr. Mocny. Just to answer your specific question, are we 
addressing the issues post the President's announcement, yes, 
we are. There are several working groups that are looking at, 
you know, how we would get individuals into a program such as 
this, some of the enforcement mechanisms that would have to be 
in place, how we would work with the private industry, how the 
Department of Labor would select the individual companies who 
might benefit from a temporary guest worker program.
    So there is a lot of active discussion going on within the 
staff level to be able to look at all of the things that 
pertain to standing up a program such as this. Yes, we are.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Hostettler. I thank the gentlelady.
    The Chair now recognizes the gentleman from Iowa, Mr. King, 
for 5 minutes.
    Mr. King. Thank you, Mr. Chairman. I'd direct my questions 
to Mr. Hite.
    Mr. Hite, you've issued two reports that have highlighted 
the risks of US-VISIT, and largely because of the scale and 
complexity of the initiative, and you have testified, and more 
recently, because of management the office for US-VISIT is 
understaffed and underfunded. In fact, isn't the underfunding 
of US-VISIT staff very much a reaction by the appropriators to 
GAO's earlier reports that you drafted?
    Mr. Hite. Congressman, that's not my understanding at all. 
All we have provided the appropriators are the facts and our 
analysis of the facts, and the way that they, in fact, have 
reacted and used them, I cannot speak to.
    Mr. King. And you wouldn't have an opinion as to why the 
appropriators might have not been as active as they would have 
otherwise on the funding for US-VISIT?
    Mr. Hite. My understanding and my experience in working 
with the appropriators is that they are supportive of US-VISIT 
and want it to be done properly and successfully. And it's also 
my understanding that the funding that has been asked for 
through the appropriations process has been granted or is in 
the process of being granted.
    Mr. King. That wouldn't be mine, but as the appropriations 
have not been up to standards, as has been testified to here, 
wasn't that actual result to increase the risks rather than 
decrease the risks?
    Mr. Hite. If there are insufficient resources to properly 
approach this program and manage it in a rigorous and 
disciplined fashion, yes, sir, that would increase the risks.
    Mr. King. Criticisms of the complications of this process 
might add to that.
    Mr. Hite. From our perspective, we weren't criticizing the 
fact that it's a complicated process, only that it in fact is, 
and there is an element of risk associated with doing something 
very hard and difficult, which argues more for having the right 
resources and the right controls in place to do it right.
    Mr. King. Are shortcuts necessary to meet the statutory 
guidelines?
    Mr. Hite. On any program, when you are schedule-driven, 
what you run the risk of is compromising on scope of program in 
order to meet schedule. So that is a possibility, and certainly 
for Increment 1, while it was delivered largely on time as 
promised, there were certain elements of it that weren't 
delivered on time. And, as an example, the exit capability was 
intended to potentially be part of Increment 1, and it was not 
part of Increment 1. And there were certain--there was a sub-
system that was to be part of the integration of the systems 
that was not ready January 5th for deployment and was 
implemented February 11th.
    Those are the kinds of consequences of not having the 
resources to bring to the table in order to complete something 
on time.
    Mr. King. Will your office then continue to emphasize the 
risks associated?
    Mr. Hite. Yes, sir, we will identify the risks and try to 
identify ways to mitigate those risks, and in this particular 
case, to ensure that that program office gets the resources it 
needs in order to execute its job.
    Mr. King. Thank you, Mr. Hite.
    Thank you, Mr. Chairman.
    Mr. Hostettler. I thank the gentleman.
    The Chair now recognizes the gentlelady from California, 
Ms. Sanchez, for 5 minutes.
    Ms. Sanchez. Thank you, Mr. Chairman, and I have an opening 
statement that I would just ask unanimous consent to include in 
the record.
    Mr. Hostettler. Without objection.
    [The prepared statement of Ms. Sanchez follows in the 
Appendix]
    Ms. Sanchez. My first question is for Mr. Hite. In your 
testimony you discussed the interfacing of several databases as 
part of US-VISIT, including ADIS, APIS, and IBIS, among others. 
When this Subcommittee held a hearing on the CLEAR Act, one of 
the major concerns was compromising the NCIS database, which is 
a criminal database, with immigration violations.
    I'd like your opinion as to what would be the impact of 
interfacing all of these databases into one system and whether 
or not any of them would be compromised or overloaded as a 
result of compiling them, and, if so, how that could 
potentially impact our national security?
    Mr. Hite. That's a very good question, and when you address 
issues like that as to what's the appropriate level of 
integration associated with multiple systems and multiple 
databases, you can't presume that full integration of these is 
the best solution. It's all driven by need and requirements 
associated with the missions that those systems support. And 
there are legitimate reasons why you separate databases and you 
separate systems and functions.
    So my position on that would be, in order to make an 
informed decision about what's the proper level of integration 
among multiple systems, you have to take a top-down approach to 
identifying what's the set of mission needs that we're trying 
to satisfy and what's the best allocation of functionality and 
data associated with that, and then you apply the appropriate 
level of security around those data sets. So there's not a one-
size-fits-all answer to that question.
    Ms. Sanchez. But if the database were--if we were to err on 
the side of overinclusiveness with the database, could that 
potentially pose a risk to our national security?
    Mr. Hite. I think if you integrate databases without 
considering the implications of what mixed data portends in 
terms of access, then, yes, you increase the risk of the 
security problem, which would definitely--potentially be a 
national security risk.
    Ms. Sanchez. Okay. Your testimony also raises concerns 
about the interfacing of several agencies with DHS and how 
mismanagement can result in inefficiency. Has the GAO to date 
conducted any research on the interface between US-VISIT and 
intelligence agencies? And if so, how effective has the 
interface been? And how, in your opinion, could it be improved?
    Mr. Hite. No, ma'am, we have not done any work regarding 
US-VISIT and its integration with intelligence agencies.
    Ms. Sanchez. Do you think that a study like that would be 
potentially helpful?
    Mr. Hite. It's certainly a relevant question, that if I was 
the Secretary of the Department of Homeland Security I would be 
focused on it, so, yes, in that regard, from a congressional 
oversight standpoint, it's a relevant question.
    Ms. Sanchez. Okay. Thank you.
    My next question is for Mr. Jacksta. I'm concerned about 
the following up, the tracking that US-VISIT does at the entry 
phase, what you call the status management phase, after a 
foreign national has already entered the country. How does US-
VISIT work with Federal law enforcement and intelligence 
agencies to determine and differentiate between who is a 
national security threat and who is a visa overstay that means 
no harm to the country?
    Mr. Jacksta. If it's all right with you, I'd like to defer 
to Mr. Mocny. He's specifically working on that issue.
    Ms. Sanchez. Okay. We will pass.
    Mr. Mocny. Thank you. The status management piece, it does 
occur after the person is admitted into the United States. What 
we are trying to achieve with that is to make sure that the US-
VISIT system, and particularly the ADIS, or Arrival and 
Departure Information System, has the most up-to-date 
information about any given foreign national. I use the analogy 
of someone who wants to come to school here, but they don't 
know which school they want to go to. So they come in as a B-2 
or visitor as an intending student. They look throughout the 
country, and they find the school that they want to go to, and 
now they want to adjust status to an F-1 or a student. They 
would go into the Citizenship and Immigration Services offices 
to adjust their status from a B-2 to an F-1.
    When they came into the United States, Mr. Jacksta gave 
them 6 months to leave the country as a B-2 visitor. We have to 
know now that that B-2 doesn't have to leave after 6 months; 
they are here for the duration of status. And so we update the 
record to ensure that that person is not sought after by the 
Immigration and Customs Enforcement agents for spurious 
reasons.
    With respect to the tie-in to the intelligence agencies, 
again, we will work with the TTIC as it begins to stand up and 
as we begin to consolidate all the watchlist databases that 
would enable--perhaps not in the instance I just gave you, 
which is perhaps the more common one, but perhaps if there's an 
adverse action, if a foreign national is, in fact, encountered 
by a law enforcement agent and/or an ICE immigration agent, 
would that agent have the resources available to him or her to 
make a decision about, as I said, to release that individual or 
not?
    That is where we need to go. We don't have that 
information. And so, oftentimes, an adjudicator today will 
grant a benefit, not being fully informed about what other 
information we may have on that foreign national, and very 
similarly, an ICE agent or any other law enforcement agent may 
make a decision about a foreign national without that full 
information. That is what US-VISIT is trying to overcome. It's 
trying to provide the decision makers with the appropriate 
information so that they make fully informed decisions.
    So I don't think we're there yet where we'd like to be. 
That is certainly some place that we want to get to in the very 
near future.
    Ms. Sanchez. Thank you.
    I yield back.
    Mr. Hostettler. I thank the gentlelady.
    The Chair now recognizes the gentleman from Utah, Mr. 
Cannon, for 5 minutes.
    Mr. Cannon. Thank you, Mr. Chairman.
    I have a question for all of you, and I recognize in asking 
the question that you're focused on border control as opposed 
to internal criminality. But I met recently with a group of 
people who head organizations that deal with immigrants who are 
here sometimes legally, sometimes illegally, and pointed out to 
them that there's 10 to 20 times the criminality among those 
groups who are here illegally as we have in the rest of the 
population. And after talking about profiling and about how 
things would work, I asked them if they wouldn't like to see 
something happen to help solve the problem of criminals who are 
here in America living today who are typically preying on their 
own ethnic group.
    And I was really actually quite surprised at the reaction. 
We talked about US-VISIT and whether that, if you applied the 
program and could identify criminals and you could do it 
without profiling, could they support the program. I was amazed 
at how positive they were at that suggestion.
    Can each of you, given your different perspectives, talk 
about what the cost would be and what needs to be done and what 
the possibilities are of using the US-VISIT program possibly by 
enabling the local police forces to get an evanescent 
fingerprint from somebody they pull over because they have a 
broken tail light or something? And then if they match a 
database and meet certain criteria, they can be stopped and 
turned over to the Federal forces, or let go and their 
fingerprint disappears? Is that a possibility? What would it 
cost? Do we have--what databases do we need to integrate into 
US-VISIT to make that work? And is it at all feasible?
    Thank you. I'll just listen to all of your answers as you 
wish.
    Mr. Jacksta. Okay. I'd like to just quickly jump in and say 
that if a person is coming into the border, we would identify 
those individuals and we would prevent them. And I think that's 
important to note. So at least there is a safeguard there that 
we can utilize that information.
    I think also, as we move forward with US-VISIT and we start 
doing it on the outbound side of the house, where individuals 
are leaving the United States, we would also be able to stop 
them and identify them at the port of entries and take 
appropriate law enforcement action.
    Regarding, I guess, the domestic enforcement of the 
program, I'm not really capable of explaining all the issues 
that may come up regarding privacy issues and issues along 
those lines. So I'm not working on that specific issue. Maybe 
the US-VISIT office is thinking about how they're going to work 
with the State and locals and might be able to give you a 
little bit more information on that.
    Mr. Cannon. Let me just point out, again, I recognize the 
difference between the border and internal enforcement, and 
that they're complicated, also that they may be very expensive. 
The question is: Is there something here that's worth looking 
at? And have we made any progress--have we done any thinking 
about that?
    Mr. Jacksta. I think I might want to add that the system 
works very well, so what lessons we've learned over the years 
at the ports of entry, at the borders, are lessons that 
probably would be very valuable to any type of domestic program 
as we move forward.
    Mr. Cannon. Thank you. Let me just point out for the 
record, I agree with that point, that we have learned a lot of 
lessons. And Mr. Hite talked about the cost and the complexity 
of a program, and that was a very interesting contribution. 
But, in fact, we have learned a lot, and so in that context, 
I'd like to hear from the others about what the possibilities 
are.
    Mr. Mocny. I'd be happy to. We talk about five main 
business processes within US-VISIT. There's pre-entry, which is 
what happens with the Department of State, and anything that 
happens prior to the individual getting here. There's entry, 
which, of course, happens at the ports of entry, and that 
certainly is the focus today because that's the first increment 
that we rolled out, was the ports of entry. There's also then 
the status management that Ms. Sanchez raised, exit, and then 
analysis.
    So those are five main business processes that we attain to 
the program, and it certainly does entertain the issue of using 
ICE agents.
    I mentioned that we do have an overstay list; we now can 
provide that information to a unit stood up within ICE, the 
custody of Compliance Enforcement Unit. Those agents then 
prioritize through a list of those people that they cannot find 
a departure record for, and then use the information that we've 
provided to them, be it an address or other contact information 
to actually go out and locate those individuals.
    So we have already begun to see a benefit of having online, 
not just in paper form, but online immediate access to those 
overstay information. It's not obviously where we want to be. 
As I said before, we have to improve upon this. And to say that 
we now have this opportunity to do all the things that you just 
mentioned, to provide this information to that Kansas City cop 
at 3 o'clock in the morning who may, in fact, have in front of 
him someone that we have interest in, and to have him write a 
ticket and let that person go when, in fact, that may not be 
the best interest.
    So we will continue to work with ICE, we will continue to 
work with the Department of State to actually stop people 
before they get a visa.
    Mr. Cannon. Let me just make a distinction of what you 
said. You said stop somebody that you may have an interest in. 
Your interests are more narrow than what I'm going after, 
because I think society has an interest in getting violent 
criminals out, and then there are more and more, larger and 
larger groups that we may define as having an interest in. But 
those will tend to not be the groups that you're looking at as 
a high priority. And so could you just address the ability to 
actually use that database for priorities that we may set in 
Congress or that a State may set and that you have the data and 
ability to support the enforcement of?
    Mr. Mocny. Absolutely. We on a regular basis get downloads 
from the FBI, from the NCIC's wanted files. So on a regular 
basis, Mr. Jacksta mentioned a few of them, and most of the 195 
that we have detained have had active warrants from a State. So 
there was a crime that was committed in New Jersey, in San 
Diego, in Atlanta, and then we would extradite that individual. 
More recently, we had someone just the other day from New York. 
That person is detained then because that warrant from the 
State of New York is part of the process, part of the NCIC 
process. We then--and the State of New York did extradite that 
individual. We put a detainer on that individual. So after 
they're satisfied that they have gone through the prosecution 
for that particular individual, we can then take that person 
and deport them as appropriate.
    So we do work through the NCIC, through the FBI. We are 
working with the individual States who provide information to 
us so that we can then take appropriate action when either they 
show up at a port of entry or that we find them in the interior 
of the United States.
    Mr. Cannon. Mr. Chairman, I don't think the clock was 
reset, and I am loath to abuse my time, but I do have a couple 
more questions. I'd like to hear from the rest of the panel if 
we could do that. I don't know how you want to handle the 
clock.
    Mr. Hostettler. We'll have a second round of questions.
    Mr. Cannon. Okay. Have I finished my 5 minutes?
    Mr. Hostettler. Yes.
    Mr. Cannon. Okay. Setting the clock actually helps because 
we know where it is. Thank you.
    Mr. Hostettler. The Chair now recognizes the gentleman from 
Arizona, Mr. Flake, for 5 minutes.
    Mr. Flake. I thank the Chairman and thank the witnesses.
    I am still having a hard time distinguishing between, you 
know, what's happening on the southern border with the border 
crossing card, what's happening with US-VISIT, what the 
timetable is. It seems a little unclear.
    As I understand it, a DHS fact sheet recently said that 
laser visa readers will be deployed at all land border points. 
Does that apply to the southern border as well?
    Mr. Jacksta. Yes, sir. We are deploying a border 
verification system to read the BCC card. We hope to have them 
out at the 50 largest land border locations by the end of June. 
Clearly, we're going to be putting our emphasis on putting them 
out in the land border locations on the southern border 
initially.
    Mr. Flake. For example, I toured the port at San Luis by 
Yuma where thousands upon thousands come through between the 
hours of 3 and 6 a.m. to work in the fields and then return. 
Some are U.S. citizens. Some are legal permanent residents of 
the U.S. but live in Mexico because it's cheaper. You have a 
mix of a lot of people that come through.
    Right now their card is simply checked visually, the 
picture on the card and what-not. When that person returns to 
Mexico at night or the next evening--they are given 72 hours to 
return. Is it checked or entered or anything at this point?
    Mr. Jacksta. When they're leaving the United States?
    Mr. Flake. Yes.
    Mr. Jacksta. Presently, sir, we don't do that unless we 
have a special enforcement action.
    Mr. Flake. So there's no way to know if they stayed the 72 
hours or longer?
    Mr. Jacksta. That's correct.
    Mr. Flake. When the visa reader--the laser visa reader is 
installed, will it check whether they've been in 72 hours? 
Automatically that information will be downloaded every time 
the card runs through the reader, correct?
    Mr. Jacksta. The information that we obtain at the time 
that the person comes into the United States will verify that 
the person who is crossing the border and the card that they 
have are the same person. So we'll identify them through the 
biometric fashion. We will not, currently, in the process that 
we're putting out there, be able to say whether that person has 
overstayed previous times unless we have additional 
information.
    Mr. Flake. No, no, previous times I understand. But from 
the point where the visa reader is employed, say if it's 
employed in June, from June onward, when that person returns 
then home, it will--they'll run it through again, correct?
    Mr. Jacksta. That's correct.
    Mr. Flake. Okay.
    Mr. Jacksta. Not when they're leaving the United States. 
Only when they're entering the United States.
    Mr. Flake. But not when they're leaving.
    Mr. Jacksta. That's correct.
    Mr. Flake. But the visa says they're eligible to be here 
for 72 hours.
    Mr. Jacksta. That's correct.
    Mr. Flake. If they overstay, then, it's just a freebie.
    Mr. Jacksta. There's no--currently, there's no mechanism to 
determine whether they have overstayed their 72 hours.
    Mr. Flake. Wouldn't it be possible to actually just run the 
card upon exit? If it's a biometric card and it can--there's 
downloadable information. Is that not possible? Or is that 
envisioned at some point?
    Mr. Jacksta. I think it's clearly possible, sir, but it 
does create a tremendous amount of workload issues regarding 
individuals starting a process where everybody who leaves the 
United States is checked. And I don't think we want to do that 
right now on a regular basis. We can do it on special 
enforcement actions.
    Mr. Flake. How will the primary inspection process differ 
from what we have today? Say a car pulls through the station, 
will every person in the car have their cards checked when we 
have the visa readers installed, or just the driver?
    Mr. Jacksta. Initially, sir, when the vehicle comes up, the 
inspector will ask the individuals for their identification and 
see it. If he has any concerns regarding any individuals, he 
would direct them to a secondary area. In the secondary area, 
that's where we would read the border crossing card, not at the 
primary vehicle lane.
    Mr. Flake. You stated that border crossing cards will 
continue to be utilized along the southern border. We won't use 
the US-VISIT program or it won't be photographed every time. 
But how will we know--I mean, we'll have the biometric 
information on the BCC as it is right now. Every time a person 
goes through they will run that through when we have the visa 
reader, correct?
    Mr. Jacksta. Yes.
    Mr. Flake. And if there's a failure, they'll have to go in 
and get screened again or reissue the card or just deny 
entrance?
    Mr. Jacksta. Well, once again, when a person's coming 
across, we're not going to do every individual that comes 
across the border with the reader. We're going to basically put 
it in the pedestrian lanes in our secondary areas. When 
individuals come across, the inspector is going to make a 
decision on whether there's any concerns regarding the border 
crossing card or the individual. He or she can use that device 
at the primary. If there are any concerns or if there's a false 
read or if there are concerns regarding the documentation, we 
would send the individual back to the secondary area where a 
more intense inspection and questioning would take place.
    Mr. Flake. Okay. So not everybody will have it read, just 
those identified by the screener as a possible threat or 
something out of character?
    Mr. Jacksta. That's correct, sir.
    Mr. Flake. Thank you.
    Mr. Hostettler. The Subcommittee will now turn to a second 
round of questions, and I would like to follow on the gentleman 
from Arizona's line of questioning.
    A concern that I have is the exploitation of loopholes that 
are created in these various systems, and the US-VISIT program 
is an entry-exit program. As the gentleman pointed out in his 
line of questioning, for BCCs, for crossing cards, we don't 
have an exit at this point to verify the exit of an individual. 
That's of a concern to me.
    But, also, if we could show the border crossing card that's 
been made available to us, when we talk about the use of 
biometric data, we have a photo and a fingerprint. The laser 
readers will read the data that's on the card. The Border 
Patrol agent will review the photo, but there will be no actual 
verification that the biometric data--namely, the fingerprint--
matches up with the fingerprint of the individual that is 
presenting the card. Is that correct?
    Mr. Jacksta. No, sir. I believe that when the individual 
brings the card, the inspector will take the card, put it 
through the reader. The individual will put his finger on a 
reader, just like this here, and at that point the card and the 
finger of the individual should match. If they do not match at 
that point, the inspector would say, okay, time out here, let's 
make sure we refer this person to a secondary area and do 
further inspection.
    Mr. Hostettler. And that will be done on every individual 
that comes through?
    Mr. Jacksta. Not every individual, sir. Based on the issue 
of during the inspection process, during specific times of the 
days, we would send--we would use the machine. But every 
individual coming across the border is not going to have their 
BCC read.
    Mr. Hostettler. Okay. And that would be on a random basis, 
some basis where we would pull an individual aside to run them 
through that process that you just mentioned.
    Mr. Jacksta. Right. And there are certain times during the 
day when we'll be able to do it for every traveler coming 
across. It's an important tool. The inspectors are going to be 
utilizing it. The issue it comes down to is does everybody have 
to be read through that. There are certain things that the 
inspectors use, their intuition. There's also factors that have 
to be taken a look if there is any concerns regarding any type 
of delays, what type of travelers would be needed to be 
checked. So it's risk management.
    Mr. Hostettler. It's possible that every cardholder will 
assume that they may be put into a line that's taken and 
analyzed. Is that correct?
    Mr. Jacksta. That's correct.
    Mr. Hostettler. That's good.
    One of the other areas that we talked about was the visa 
waiver program. Now, with the visa waiver program, an 
individual that comes into the country--let's take Mr. Reid 
once again, Richard Reid, a British national. If he was able to 
obtain a passport of an individual who was very similar looking 
as him, because a visa waiver does not go through the 
participant does not go through the US-VISIT program, that 
individual, Richard Reid may look like the individual on the 
passport but will not be subject to the biometric data. And is 
that the case?
    Mr. Jacksta. Once again, if he is a visa waiver individual 
coming under the visa waiver program and he has all the--he 
presents himself at the port of entry, the inspector would take 
a look at it, since he's currently a visa waiver program, visa 
waiver countries are exempt from US-VISIT. It does not prevent 
the inspector, if necessary, sending him once again back to the 
secondary area, doing an inspection, taking a closer look. We 
have equipment out there for our offices that helps them 
discover any type of fraudulent documents or any type of 
concerns regarding the documents that are being presented.
    Mr. Hostettler. But we're placing that burden on the agent 
themselves--is that correct?--as opposed to the US-VISIT. And I 
just want to clarify that because we very much depend on the 
Border Patrol and others to do that wonderful job. And the 
purpose for these systems are to aid them in that. And what we 
don't want to have happen is we don't want a terrorist or 
criminal or whoever to be able to exploit these loopholes, that 
if, in fact, we need to look at ways to get rid of these 
loopholes, whether it's similar to the border crossing card 
where every individual from a visa waiver program country knows 
that they may be subject to that--that's probably very 
controversial, which I've just said. But, still, it is an 
opportunity for that to be exploited.
    Are there any other programs, Mr. Jacksta, that you are 
familiar with that could be possibly exploited because we will 
not be subjecting them to US-VISIT?
    Mr. Jacksta. Well, we always want to make sure that we have 
as much information as possible regarding an individual, and if 
we have additional information, it allows us to make a 
decision. Good documents, documents that contain biometrics are 
clearly the way that we would like to go where we could have 
the ability to identify individuals, the documents that they're 
presenting. And I think the Administration is taking a look at 
a long-term goal to make sure that documents that are issued by 
foreign governments as well as our documents in the United 
States have some type of biometric chip. Maybe the US-VISIT 
office could add a little bit more on exactly what--when that 
will be happening. But, clearly, from CBP's perspective and 
having an officer at the port of entry, the more information 
they have, the capabilities to identify that the documents are 
legitimate documents, to identify that the person who's 
presenting the documents is actually the person who owns the 
documents, all enhances our security at the border.
    Mr. Hostettler. Very good. Thank you.
    I don't think we have any others. In conclusion, I want to 
thank you gentlemen all for your presence here today, and 
especially for your service to our country, and remind Members 
that all Members have 7 legislative days to enter into the 
record extraneous material and make and revise their 
statements.
    The business before the Subcommittee being completed, we 
are adjourned.
    [Whereupon, at 11:30 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
           Representative in Congress From the State of Texas

    The Department of Homeland Security launched US-VISIT at 115 
airports and 14 seaports on January 5, 2004. The stated objective for 
US-VISIT is to enhance the nation's security while facilitating 
legitimate travel and trade through our borders.
    The security measures employed by this program begin overseas at 
the U.S. consular offices that issue visas. Digital fingerscans are 
taken at these offices and used to determine whether the applicant is 
on a database of known or suspected criminals or terrorists. When a 
foreign visitor with a visa reaches our border and seeks admission into 
the United States, the fingerscans are used to verify that the person 
seeking admission is the same person who received the visa, and another 
check is made for information about any involvement in terrorism or 
crime. I have heard positive things about the way the entry inspection 
part of the program is being implemented at airports, but the exit part 
of the program has not been developed fully yet. The real test, 
however, will be implementing the program at the land ports of entry.
    In FY 2003, 79% of all travelers seeking entry into the United 
States entered at a land port of entry. Land ports of entry are more 
problematic for US-VISIT than airports for a number of reasons. Traffic 
at these crossings consists of varying combinations of cars, 
pedestrians, bicycles, trucks, buses, and rail. Moreover, land ports 
pose difficult challenges to the creation of an automated alien 
tracking system due to their location, infrastructure, geography, and 
traffic volume, which can vary extensively among ports of entry.
    Congress has mandated that an automated entry-exit program be 
implemented at the 50 busiest land ports of entry by December 31, 2004, 
and at all land ports of entry by December 31, 2005. I am particularly 
concerned with the viability of implementing the exit check piece of 
the program. In addition to the need for additional staff for exit 
checks that are not currently being done, the existing facilities at 
land points are inadequate. According to a study performed by the Data 
Management Improvement Act Task Force, more than 100 of the land ports 
of entry have less than 50% of the required capacity to support current 
inspection processes and traffic levels. Apparently, DHS plans to 
address this problem by constructing interim facilities at 50 ports of 
entry.
    I have asked the General Accounting Office (GAO) to provide a 
witness at this hearing to discuss these and other problems in the US-
VISIT program. Randolph Hite, the GAO Director of Information 
Technology Architecture and Systems issues will tell us about a report 
issued by GAO on September 2003, which describes the most significant 
challenges to implementing US-VISIT (GAO-03-1083). According to this 
report, which Director Hite will update today, the scope of US-VISIT is 
large and complex; it must meet a demanding implementation schedule; 
and its potential cost is enormous. The report indicates that many of 
the difficulties are inherent to the program and cannot easily be 
changed but others are attributable to an inadequate state of 
governance and management. The report casts doubt on whether US-VISIT 
will be able to measurably and appreciably achieve the Homeland 
Security Department's goal of enhancing national security while 
facilitating legitimate travel and trade.
    Even if the Department of Homeland Security is successful in 
implementing US-VISIT, the program may not make our country more secure 
in any significant way. In 1998, a Senate Judiciary Committee Report 
(No. 105-197) found that, ``implementing an automated entry-exit 
control system has absolutely nothing to do with countering drug 
trafficking, with halting the entry of terrorists into the United 
States, or with any other illegal activity at or near the borders. An 
automated entry-exit control system will at best provide information 
only on those who have overstayed their visas.'' In its present form, 
US-VISIT only will apply to foreign visitors seeking admission on the 
basis of non-immigrant visas. It will not include aliens presenting 
lawful permanent resident documents or visitors from the 27 countries 
participating in the Visa Waiver Program. Most Canadians are not 
subject to US-VISIT. I do not believe that we can rely on such a 
limited program to secure our borders, and I question whether the 
benefits justify the enormous cost of the program. Thank you.

                              ----------                              

  Prepared Statement of the Honorable Steve King, a Representative in 
                    Congress From the State of Iowa

    Chairman Hostettler, Thank you for holding this hearing today. I am 
encouraged by the progress made in implementing US VISIT. I will 
carefully monitor the implementation of this program because I believe 
it is an essential component of our national security.
    I was concerned when Homeland Security Under Secretary Asa 
Hutchison recently announced that most Mexicans who currently hold a 
Border Crossing Card (BCC) will not be processed through US VISIT. I 
believe BCC holders must be processed though US VISIT.
    Under current law, Mexicans who use a BCC as a border crossing card 
can only travel for up to three days in a border zone (within 25 miles 
of the California, Texas and New Mexico border, and 75 miles of the 
Arizona border). How do we know whether these cardholders are complying 
with these restrictions? In addition, we do not know whether another 
person is posing as the card holder if fingerprints are not verified at 
each crossing. Currently, DHS inspectors only check a BCC holder's 
picture by sight.
    I look forward to the day when US VISIT will ensure that no BCC 
holder stays illegally in the country for over their allotted 72 hours. 
I am encouraged by the progress in implementing US VISIT and will 
continue to follow it as it develops.
    Thank you Mr. Chairman.

                              ----------                              

Prepared Statement of the Honorable Linda T. Sanchez, a Representative 
                in Congress From the State of California

    I'd like to thank Chairman Hostettler and Ranking Member Jackson 
Lee for convening this oversight hearing for the Subcommittee to look 
at U.S. Visitor and Status Indicator Technology (US-VISIT), another 
Bush Administration program related to immigration and homeland 
security. So far this session, the intersection of homeland security 
and immigration has been the common theme of this Subcommittee's 
hearings. We have held two hearings on funding for immigration in the 
President's budget, a hearing on alien removal under Operation 
Predator, and now this hearing on the US-VISIT program.
    I give credit to the DHS and US-VISIT agents for their hard work in 
screening visitors. I also commend DHS for recognizing that many 
travelers across the Mexican border do not need to be fingerprinted and 
photographed to improve our safety.
    It goes without saying that beefing up our homeland security should 
be our number 1 concern. The question remains, how do we do that 
efficiently? I find that all of the Bush Administration's programs the 
Subcommittee has reviewed to date raise serious questions about whether 
the programs are effective in fighting terrorism, and whether the 
Administration's programs are stifling legitimate immigration and 
trade.
    The US-VISIT program raises these concerns as well. First of all, 
US-VISIT is a very expensive initiative that is not improving our 
security enough to justify the money we are putting into the program. 
Second, the US-VISIT program wrongly equates immigration with 
terrorism, and diverts federal resources away from programs and 
proposals that will make our country more secure. And finally, there is 
a danger that US-VISIT will hamper legitimate travel and trade.

                 US-VISIT IS COSTLY, BUT NOT EFFECTIVE

    The US-VISIT program is like many other immigration ``enforcement'' 
initiatives proposed by the Bush Administration, ineffective yet very 
costly. Last year, the Department of Homeland Security estimated that 
US-VISIT will cost $7.2 billion through fiscal year 2014, and even this 
estimate may be low. Needless to say, that is an enormous amount of 
money. But even Department of Homeland Security officials have 
confirmed that the US-VISIT program is not successfully identifying 
terrorists.
    At the February 25th hearing on immigration spending in President 
Bush's budget, I asked Eduardo Aguirre, the Director of U.S. 
Citizenship and Immigration Services, and Michael Dougherty, the 
Director of Operations at U.S. Immigration and Customs Enforcement, how 
many terrorists had been identified and captured using the US-VISIT 
system. Their answer: zero.
    While I was not surprised that no terrorists have been caught using 
US-VISIT, I am perplexed at how the President can request $340 million 
in his FY'05 for a program that has not caught or identified a single 
terrorist. So the question is: if US-VISIT is not capturing terrorists, 
what is it doing?
    The answer I hear most often is that US-VISIT keeps tracks of who 
enters the United States and who overstays a visa. I understand the 
argument that tracking immigrants that enter the country, knowing who 
is here and who overstayed a visa makes our country safer. But simply 
knowing who has overstayed a visa is not going to prevent terrorist 
attacks. The tragic events of 9/11 proved that.
    We all know that many of the perpetrators of those horrible acts 
entered the country on legitimate visas and overstayed. If our 
intelligence agencies don't have the resources to identify and remove 
terrorists, then overstay tracking doesn't help to protect us. 
Therefore, tracking and keeping a database of entrants and visa 
overstays, like US-VISIT does, would not have prevented the attacks of 
9/11 from happening and will not prevent future attacks.
    The recent bombings in Madrid and yesterday's bombing in Iraq show 
that mere tracking of travelers will not provide safety for any 
country. If we want our homeland to be safe, we need security at our 
ports, at locations where terrorists can transport weapons, and at the 
potential terrorist targets. We also need intelligence to identify 
those who want to carry attacks out.

         FOCUS HOMELAND SECURITY ON TERRORISTS, NOT IMMIGRANTS

    Another important and needed change, if we really want to improve 
our homeland security we need to put funds into comprehensive 
immigration reform, and intelligence and federal law enforcement 
efforts to identify and apprehend terrorists. Our homeland will not be 
secure if we commit our resources to deporting immigrants who are here 
contributing to our country.
    I've joined my fellow Democrats in repeatedly saying to the 
President if you want to reform our system, support good immigration 
bills like the DREAM Act and the AgJOBS bill. Also, by providing an 
earned legalization program for the immigrants who are here working and 
following our laws, we identify those visitors who mean to do this 
country harm and those that don't. Equally important, reducing the visa 
backlog and allowing families to remain together while immigration 
applications are pending minimizes the incentive for illegal 
immigration. By implementing these ideas into law we allow our 
intelligence agencies to do their job finding terrorists.
    Good intelligence is the key to preventing terrorism. We have to 
combine our intelligence agencies with our international allies' 
intelligence agencies to eliminate terrorist cells abroad before they 
attack. Here in the United States, our intelligence agencies must work 
with federal law enforcement agencies to target, apprehend, and bring 
to justice those terrorists who have managed to get into the country. 
This kind of focused, intelligence-based effort will make our homeland 
safer.
    Too many of the Bush Administration's homeland security efforts do 
not make us safer because they fail to draw the distinction between 
immigration and terrorism. For example, our hearings on President 
Bush's budget showed that the Bureaus of Customs and Border Protection 
and Immigration and Customs Enforcement are seeking the largest 
increases, $257 million and $281 million respectively, over the amounts 
those bureaus received in FY '04.
    If the President wants $538 million more to apprehend, detain, and 
deport immigrants in this country, most of whom are here to work and 
provide for their families, he is not drawing the distinction between 
immigrants and terrorists. Unfortunately, the US-VISIT program fails to 
draw that distinction too.
    The US-VISIT program will spend billions of dollars to fingerprint, 
photograph, and read the biometric passports of tourists, visitors, and 
immigrants who are not threats to our national security. The 
overwhelming majority of visitors who cross our borders are here for 
legitimate travel, work, or study, and fingerprinting and photographing 
these visitors is not going to prevent a future terrorist attack.
    Another problem with US-VISIT is that DHS does not have the human 
resources to follow through on the visa overstays that are identified. 
Locating, detaining, and deporting visa overstays takes time and 
federal agents. The testimony we have heard from DHS officials suggests 
that they only have the manpower to locate and remove a fraction of the 
visa overstays that the US-VISIT program will identify.

                     US-VISIT MAY HARM THE ECONOMY

    Another concern that we must consider with the US-VISIT program is 
how this initiative will impact our economy. The US-VISIT program has 
the potential to have a very damaging impact on our travel and trade 
industries. I have already heard stories of airplanes landing at LAX in 
my district and the passengers having to remain on the plane at the 
gate for hours because of passenger screening backups. That's just one 
airplane. If you multiply the hours passengers on one plane have to 
wait by all of the commercial flights into American airports, the 
delays would be astronomical and our airline industry, airline workers, 
and their families would suffer.

                               CONCLUSION

    I want the Members of the Committee and our witnesses to know that 
I want our country to be safe and I want to bring every person who 
threatens our national security to justice. I think that the agents of 
the Department of Homeland Security, including the men and women who 
implement US-VISIT, are doing their jobs and working hard to protect 
our country. However, I think that the Administration needs to review 
how it goes about protecting our homeland, and how their programs will 
effect immigration and tourism.
    All of us agree that we don't want the events of 9/11, or the 
recent attacks in Madrid and Baghdad to occur anywhere again. I hope 
that as we discuss programs like US-VISIT we don't forget about 
securing our ports and protecting our communities.
    Again, I thank the Chair and Ranking Member for the opportunity to 
express my views. I also thank our witnesses for being her today. I 
look forward to their testimony and responses to our questions.

                              ----------                              

          Prepared Statement of the Travel Business Roundtable

                                OVERVIEW

    The Travel Business Roundtable (TBR) would like to thank Chairman 
Hostettler and Ranking Member Jackson Lee for holding this important 
hearing, and is pleased to have the opportunity to submit a statement 
for the record regarding the US VISIT program. TBR is a CEO-based 
organization that represents the diverse travel and tourism industry, 
with more than 85 member corporations, associations and labor groups. 
The travel and tourism industry is an engine for economic development 
and job creation. Some 17 million Americans are employed in travel and 
tourism-related jobs with an annual payroll of $157 billion. Travel and 
tourism is the first, second or third largest industry in 29 states and 
the District of Columbia. In the last decade, travel and tourism has 
emerged as America's second largest services export and the third 
largest retail sales industry. Our industry is in 50 states, 435 
Congressional districts and every city in the United States.
    It is impossible to stress enough how important international 
visitors are to the health of our industry as well as the overall U.S. 
economy. From 2001 to 2002, international travelers to the United 
States dropped from 44.9 million to 41.9 million. International visitor 
spending in the U.S. over that time decreased from $71.9 billion to 
$66.5 billion. And our travel trade surplus of $26 billion in 1996 
plummeted to $5.5 billion in 2002. This continued downward trend of 
international visitor patterns has caused federal, state and local 
government travel-related tax receipts to decline from $95.5 billion in 
2001 to $93.2 billion in 2002. Moreover, U.S. travel and tourism 
industry payrolls have dwindled from $160.3 billion in 2001 to $157 
billion in 2002, and industry job growth remained stagnant at 17 
million workers.
    TBR vigorously supports the efforts of Congress, the Department of 
Homeland Security, the State Department and the Bush Administration to 
establish and implement programs such as US VISIT to protect our 
country. However, it is vital that the agencies incrementally 
implementing these programs consider their collective impact on the 
traveling public. Being ever mindful of DHS Secretary Tom Ridge's 
admonition about the need to create the proper balance between 
protecting our homeland and promoting free and open commerce, TBR's 
goal is to ensure that the paramount objective of protecting our 
nation's security is pursued in a manner that is effective, coherent 
and does not unnecessarily compromise our economic vitality.

                                US VISIT

    The US VISIT program was officially launched on January 5, 2004 at 
115 airports and 14 seaports. The system, created by Congress to better 
track foreign travelers crossing our borders, requires all visitors 
entering the U.S. with a visa to submit biometric identifiers at ports 
of entry. The initial phase requires two fingerprint scans and a 
digital photograph.
    Thus far in its implementation, significant delays have not been 
reported. However, TBR is concerned that the program's technological 
ability may not be able to incorporate significantly more travelers 
during peak travel seasons. We are also concerned that, as more 
information is added to the database, search times may become lengthy 
and delays may occur.
    The exit component of US VISIT, a self-service kiosk, is currently 
in testing at Baltimore-Washington International Airport and Miami's 
seaport. TBR has heard reports that the system, because it is voluntary 
in nature and many travelers are not aware of the need to ``check 
out,'' may require personnel to guide passengers through it in a timely 
manner. Thus far in the pilot program, many travelers have simply 
failed to notice the kiosks, which may create problems for them upon 
re-entry in the U.S. through no fault of their own.
    In testimony before the House Select Homeland Security Subcommittee 
on Infrastructure and Border Security on January 28, 2004, James May, 
president and CEO of the Air Transport Association of America and a TBR 
member, expressed concern that the burden of directing travelers 
through the exit program might fall on airline personnel. TBR agrees 
that the airline industry should not bear this responsibility.
    In the event of excessive wait times at airports and seaports, DHS 
has created a contingency plan for mitigating delays. The plan would 
exempt select travelers from US VISIT screening if delays exceed one 
hour. DHS Under Secretary Asa Hutchinson testified at the same 
subcommittee hearing that this system was developed as a precaution and 
has not been implemented to date. TBR is concerned that this 
contingency response does not adequately address security objectives 
and believes a more appropriate response would be the addition of staff 
and capacity during excessive wait times in order to conduct necessary 
screening.
    US VISIT at our land borders is still being evaluated, with 
deadlines for its capabilities to be in place at the 50 busiest ports 
of entry by December 31, 2004 and all remaining land borders by 
December 31, 2005. TBR believes that adequate staffing and technology 
must be put in place prior to implementation so that our land borders 
are not gridlocked.

              THE POTENTIAL NEXUS WITH BIOMETRIC PASSPORTS

    The October 26, 2004 deadline requiring travelers from Visa Waiver 
Program (VWP) countries to present passports with biometric identifiers 
coincides with the extended deadline for all VWP passports to be 
machine readable. A potential crisis was avoided with the delay of the 
machine readable passport (MRP) deadline last October. However, the new 
biometrics deadline still looms on the horizon. While TBR supports the 
implementation of these technologies for strengthening security at our 
nation's borders, we are concerned that enforcing such requirements 
without allowing sufficient time to meet them will harm our industry, 
the U.S. economy and our nation's image around the world. TBR supports 
the immediate passage of legislation that would allow VWP countries 
sufficient time to meet the biometrics requirement either by postponing 
the deadline until a date when a majority of the countries estimate 
they can be compliant or by constructing an incremental waiver program 
whereby each country's deadline is determined by its progress toward 
meeting the specified requirements.
    The Bush Administration is reportedly considering a solution to the 
biometrics issue that would involve extending the existing deadline to 
a yet-unspecified date while simultaneously requiring all VWP citizens 
to enroll in the US VISIT program. This would subject VWP visitors to 
the same fingerprint and facial recognition requirements that travelers 
who carry visas currently face.
    While the issue of the biometrics deadline for the VWP countries is 
significant, TBR believes that the inclusion of VWP travelers in the US 
VISIT system, by itself, could also create strong negative impacts. 
Attitudes abroad toward collection of personal data by the U.S. 
government and the suspect capacity of the US VISIT system to absorb 
another 13 million travelers without causing significant delays, could 
lead international travelers to eliminate the U.S. as a potential 
travel destination altogether. We urge Congress to pass a clean 
extension of the biometric passport deadline for VWP travelers that 
does not require their inclusion in the US VISIT program.

                               CONCLUSION

    According to reports from DHS, US VISIT has already uncovered 30 
known criminals and is building on its suspected terrorist watch list. 
TBR is pleased with this success and with the lack of reported 
significant delays at ports of entry. However, it is critical that all 
aspects of the system function in accordance with one another in order 
to monitor our borders and protect our homeland effectively. Therefore, 
it is vital that DHS conduct a thorough evaluation of the US VISIT 
system in its initial implementation phase at airports and seaports to 
determine where problems might exist, develop projections of capacity 
for inclusion of additional classes of travelers, test concepts for 
future implementation phases before they are undertaken and set 
realistic staffing goals to ensure the success of this endeavor.
    A variety of other homeland security issues continue to dominate 
the travel and tourism industry's legislative agenda. In addition to US 
VISIT, changes to the Visa Waiver Program (VWP) and other non-immigrant 
visa policies, the introduction of the Computer Assisted Passenger Pre-
Screening (CAPPS II) initiative and other programs collectively place 
travel and tourism at the vortex. Unique challenges attendant to each, 
when combined with overlapping common concerns, demand a coherent and 
harmonized approach to problem solving. TBR has developed a white paper 
titled Homeland Security Policy and the Travel and Tourism Industry: 
Finding the Proper Balance, which examines these issues in greater 
detail. The paper is available on TBR's website, www.tbr.org.
    TBR stands ready to work with Congress, the State Department, the 
Department of Homeland Security and other relevant federal entities to 
ensure that those who wish to do harm to our nation are prevented from 
traveling to the U.S., while those who seek to visit our country for 
legitimate reasons are treated respectfully and are admitted in an 
efficient manner. We appreciate the Committee's attention to these 
pressing matters and offer our assistance in any way.

                               MEMBERSHIP

Jonathan M. Tisch
Chairman, Travel Business Roundtable
Chairman & CEO, Loews Hotels
Affinia
American Airlines
American Express Company
American Gaming Association
American Hotel & Lodging Association
American Resort Development Association
American Society of Association Executives
Amtrak
Asian American Hotel Owners Association
ASSA ABLOY Hospitality
Association of Corporate Travel Executives
Business Travel News
Capital Management Enterprises
Carey International
Carlson Hospitality Worldwide
Cendant Corporation
Choice Hotels International
The Coca-Cola Company
Commonwealth of Puerto Rico
Delaware North Companies Inc.
Detroit Metro Convention and Visitors Bureau
Diners Club International
Fairmont Hotels & Resorts
FelCor Lodging Trust
Four Seasons Regent Hotels & Resorts
Greater Boston Convention & Visitors Bureau
Greater Fort Lauderdale Convention & Visitors Bureau
Greater Miami Convention & Visitors Bureau
Gucci
The Hertz Corporation
Hilton Hotels Corporation
Hotel Employees and Restaurant Employees International Union
HRW Holdings, LLC
Hyatt Hotels Corporation
Inc Magazine
InterContinental Hotels Group
International Association of Convention and Visitors Bureaus
International Council of Shopping Centers
International Franchise Association
Interstate Hotels & Resorts
Interval International
JetBlue Airways Corporation
Las Vegas Convention & Visitors Authority
Loews Hotels
LA INC, The Convention and Visitors Bureau
Lufthansa Systems North America
Mandalay Resort Group
Marriott International Inc.
Maryland Office of Tourism Development
McDermott, Will & Emery
The Mills Corporation
Nashville Convention and Visitors Bureau
National Basketball Association
National Business Travel Association
National Football League
National Hockey League
National Restaurant Association
Nederlander Producing Company of America
New York University
Northstar Travel Media, LLC
NYC & Company
Omega World Travel
Pegasus Solutions, Inc.
Philadelphia Convention and Visitors Bureau
PricewaterhouseCoopers, LLP
Smith Travel Research
Starwood Hotels & Resorts
Strategic Hotel Capital Inc.
Taubman Centers, Inc.
Tishman Construction Co.
United Airlines
Universal Parks & Resorts
United States Chamber of Commerce
United States Conference of Mayors
USA Today
Vail Resorts, Inc.
Virginia Tourism Corporation
Walt Disney Parks and Resorts
Washington D.C. Convention and Tourism Corporation
Waterford Group, LLC
WH Smith USA
World Travel and Tourism Council
Wyndham International
Zagat Survey, LLC

                              ----------                              

    Prepared Statement of the Travel Industry Association of America

    The Travel Industry Association of America (TIA) submits the 
following comments for the record.
    TIA is the national, non-profit organization representing all 
components of the $528 billion U.S. travel and tourism industry. TIA's 
mission is to represent the whole of the travel industry to promote and 
facilitate increased travel to and within the United States. Our more 
than 2,000 member organizations represent every segment of the industry 
throughout the country.
    International business and leisure travel to the U.S. is a vital 
component of our national economy. In 2002, over 42 million 
international visitors generated $83.5 billion in expenditures, $12 
billion in federal, state and local tax revenue, and accounted for one 
million jobs nationwide. International travel and tourism to the U.S. 
is a service export, and in 2002, generated a positive balance of trade 
of $5.5 billion.
    International visitation has continually declined over the past 
three years. Overseas travel to the U.S. was down 31.8% in 2003 
compared to 2000 levels. This decline has drastically reduced the flow 
of tax revenue to all levels of government and reduced our 
international balance of trade. Since 2000, the loss of international 
travel to the U.S. has cost our economy $15.3 billion in expenditures.
    The decline in travel is due to a variety of reasons, including 
fear of travel because of terrorism, a downturn in the global economy 
and confusion over new U.S. visa and border security procedures. While 
some of the causes are beyond the reach of an individual country, 
actions by the U.S. government can either enhance or harm our nation's 
ability to attract increased international travel to the U.S. and 
create more jobs and economic opportunities for states and cities 
across the country. For this reason, the US-VISIT program must be 
implemented with traveler facilitation as one of its primary goals. 
Otherwise, international travelers might not wish to return to the 
U.S., or may be deterred from visiting in the first place.
    TIA supports the US-VISIT program as envisioned for airports and 
seaports. TIA believes that the program meets the Department of 
Homeland Security's dual missions of enhancing the nation's security 
and protecting the economy. By developing a system that verifies the 
identity of travelers quickly and efficiently, US-VISIT adds to the 
protection of the homeland while ensuring the continuous flow of 
legitimate international travelers entering and exiting the country.
    However, TIA does have several concerns about the implementation of 
the US-VISIT program. Congress should seriously consider these issues 
as the program moves forward.

               POSTPONE DEADLINE FOR BIOMETRICS PASSPORTS

    The Enhanced Border Security and Visa Entry Reform Act of 2002 
introduced a new security element to traveler documentation which is a 
fundamental component of the US-VISIT program: biometric identifiers. 
Capturing a person's biometric and using it as part of the entry 
process will allow inspection officials to know the person before them 
is the same person to whom the passport or visa was issued. Biometrics 
are just now being incorporated into newly-issued U.S. visas. They will 
also be required in all new passports issued by the 27 countries 
participating in the Visa Waiver Program beginning on October 26, 2004.
    TIA supports the use of biometrics in travel documents. However, 
most of the Visa Waiver Program countries will not be ready to issue 
these newer biometric passports until late 2005 at the earliest. 
Missing the deadline would mean that many leisure and business 
travelers from those countries would have to obtain visas for entry 
into the U.S. The State Department estimates that as many as 5 million 
VWP travelers would be affected by this deadline.
    Forcing Visa Waiver Program travelers to get visas will deal a 
crippling blow to an already ailing travel industry. Approximately two-
thirds of all overseas (excluding Canadian and Mexican) business and 
leisure travelers, or nearly 13.5 million visitors, enter the U.S. 
under the Visa Waiver Program. Overseas travel to our nation is already 
down 32% over the past three years. Additional losses will send even 
more workers from the travel and tourism industry to the unemployment 
line. It is unrealistic to expect travelers accustomed to visa-free 
travel to spend the money and time to obtain a U.S. visa to visit our 
country. Especially when these travelers have many other appealing 
international destinations that are visa-free. Additionally, the State 
Department lacks the capacity to meet this potential increase in 
demand. A loss of those 5 million travelers would cost the U.S. economy 
$15 billion in sales and thousands of jobs.
    It is important to note that the U.S. Department of State will not 
be able to start issuing biometric passports until well after the 
October deadline. While the State Department is not required by law to 
do so, it is hypocritical for the U.S. to require other countries to do 
what we cannot.
    The October 26 deadline is a Congressional mandate. The 
Administration does not have the authority to extend the deadline. 
Therefore, TIA calls on the House Subcommittee on Immigration, Border 
Security, and Claims to support at least a one-year extension of the 
October 26 deadline. By doing this, Congress will provide the time 
necessary to allow these important trade and political allies to begin 
producing passports in a way that will not discourage inbound 
international travel to the U.S.

                          CONCERN OVER DELAYS

    TIA is very pleased that enrollment in the program has only added 
an average of 10 to 15 seconds to the normal inspection process. We 
commend Homeland Security for their efficiency.
    It is critical that this level of performance be maintained during 
peak travel periods and also when the U.S. travel and tourism industry 
recovers its lost market share. As stated above, overseas travel to the 
U.S. has dropped by approximately one-third over the past three years. 
TIA is concerned that Homeland Security will not have sufficient 
personnel to maintain a 15-second US-VISIT inspection time when 
international visitation returns to 2000 levels. TIA urges Congress to 
provide adequate funding so that Homeland Security will have sufficient 
inspectors available to immediately meet the demands of peak travel 
periods.
    While TIA is pleased with the efficiency by which individuals are 
processed, TIA also believes it is important to process entire flights 
in a timely manner. The time an individual spends at primary inspection 
is not the only time issue. There is also the concern over how long an 
individual waits to finally reach a primary inspection booth. TIA 
supports the original Congressionally mandated goal of a maximum wait 
of 45 minutes per individual. Although this mandate was repealed in the 
Enhanced Border Security and Visa Entry Reform Act of 2002 (PL 107-
173), TIA believes it is still a useful and important goal for Customs 
and Border Protection inspectors to meet. TIA urges Congress to 
allocate funding to provide sufficient inspectors for the US-VISIT 
program both to meet the 15-second individual inspection time and to 
keep the wait in line to under 45 minutes.
    If primary inspection is perceived to be too much of a hassle, many 
visitors will be discouraged from returning to the U.S. in the future. 
Additionally, long lines at primary inspection can create a chaotic 
environment that is both disruptive and places pressure on inspectors 
to shorten their review of travelers. It is critical that the US-VISIT 
program have the requisite staff to keep wait times and inspection 
times to a minimum. Otherwise, both our security and our economy will 
suffer.

                      OUTREACH TO TRAVELING PUBLIC

    TIA urges Homeland Security to increase efforts to educate the 
international traveling public about the US-VISIT program. 
International travelers coming to the U.S. for business and pleasure 
should be told who is impacted, and who is not impacted, by this new 
program. Visitors need to understand in advance what to expect in the 
process, and what they can do to make the process go more smoothly.
    The international traveling public increasingly perceives that the 
myriad of new security rules is creating a ``Fortress America.'' 
International travelers do not just consider the impact of a single 
rule, but view all rules and programs in total. They have noted the 
increase in visa fees, new visa interview requirements and growing visa 
denials. They are also aware of machine-readable passport deadlines, 
the future use of biometric identifiers in U.S. visas and Visa Waiver 
passports, collection and use of advance passenger information, or API, 
along with US-VISIT.
    By and large, these new rules and requirements make sense from a 
homeland security perspective, and TIA supports these efforts to 
enhance national security. But for many prospective international 
visitors, wave after wave of new travel requirements paint a ``big 
picture'' that the United States is becoming a destination that is too 
difficult to enter, too expensive to visit and simply not worth the 
effort. In their opinion, the ``welcome mat'' has been pulled. TIA has 
heard accounts of how this negative perception has resulted in lost 
business. While the Department of Homeland Security cannot respond to 
every misperception and rumor, the opportunity exists to set the record 
straight on the US-VISIT program and tell international travelers 
exactly what the program is and who it affects.
    In conclusion, Congress must act in two areas to ensure the 
continued success of the US-VISIT program and allow the U.S. to remain 
a viable destination for international travelers. Congress must act 
immediately to extend the October 26 deadline on biometric passports by 
a minimum of one year. Congress also must ensure that the US-VISIT 
program has sufficient funds and personnel to meet security and 
efficiency objectives. TIA also urges the Department of Homeland 
Security to increase outreach and education efforts to the 
international traveling public.

                              ----------                              

                Prepared Statement of Randel K. Johnson

    On behalf of the U.S. Chamber of Commerce, I would like to request 
that this statement be made part of the record of the hearing entitled 
``US VISIT: A Down Payment on Homeland Security.'' The U.S. Chamber of 
Commerce is the world's largest business federation, representing more 
than 3 million businesses. The Chamber's federation includes state and 
local chambers throughout the United States and 96 American Chambers of 
Commerce overseas. The Chamber's membership includes businesses and 
organizations of every size and in every sector of the economy. Chamber 
members with interest in the US-VISIT system include companies and 
organizations in the travel and tourism industries, companies that 
import or export goods and services through our ports of entry, 
companies that do business with international customers and clients, 
and companies that employ an international workforce. Chamber members 
on both the U.S.-Mexico and U.S.-Canada borders, including local 
chambers of commerce and American Chambers of Commerce abroad that 
conduct business between the United States and other countries, also 
have a great interest in the implementation and efficiency of the US-
VISIT system.
    I am also the chair of the Americans for Better Borders (ABB) 
coalition, which unites regional business organizations and a wide 
array of companies and national trade associations representing 
manufacturing, hospitality, tourism, transportation, recreation and 
other industry sectors to work to ensure the efficient flow of exports 
and tourism across our borders while addressing national security 
concerns. The ABB coalition was originally founded in 1998 out of 
concern for the impact of implementation of the original entry-exit 
provision of Section 110 of the Illegal Immigration Reform and 
Immigrant Responsibility Act of 1996.\1\
---------------------------------------------------------------------------
    \1\ Americans for Better Borders, www.abbcoalition.org.
---------------------------------------------------------------------------
    The Chamber and the ABB coalition were instrumental in the creation 
and passage of the Data Management Improvement Act (DMIA) of 2000, 
which set the current deadlines for implementation of the US-VISIT 
program and established the DMIA Task Force, a public-private group 
chartered in 2001 by the Attorney General to evaluate and make 
recommendations on how the flow of traffic at United States airports, 
seaports, and land border Ports-of-Entry (POE) can be improved while 
enhancing security. I was privileged to be named by the Attorney 
General to represent the U.S. Chamber on the Task Force in 2002. The 
Task Force submitted two reports to Congress, one in 2002 and one in 
2003. The 2002 report focused on what was then the entry-exit system 
and detailed numerous challenges to implementing such a system, 
including the differentiation required for the modes of entry, land, 
sea, and air, and differences between the northern and southern land 
border environments. In 2003, the Task Force report detailed the 
significant challenges facing our ports of entry in terms of 
infrastructure and technology and the need for greater cooperation and 
coordination among federal agencies with border responsibilities, with 
state and local governments, and the private sector. Significantly, in 
reviewing the progress to date on the US-VISIT system in 2003, the Task 
Force report included the following recommendation:

        That the first phase at air and sea [Ports of Entry] be 
        reviewed and evaluated no later than 6 months after 
        implementation by an independent body. This evaluation must 
        consider the program's effect on national and economic security 
        and international trade and travel. Congress should consider 
        any recommendations from the independent review and evaluation 
        and also reconsider deadlines for all other entry/exit 
        statutory requirements. It is further recommended that any 
        mandates in this area receive appropriate funding.\2\
---------------------------------------------------------------------------
    \2\ Data Management Improvement Act Task Force Second Annual Report 
to Congress, Department of Homeland Security, December 2003.

    The Chamber, its members, and the ABB coalition fully support the 
efforts of the Department of Homeland Security to improve the security 
at our ports of entry and borders. The purpose of my testimony today is 
not to denigrate the outstanding efforts of the Department to meet its 
difficult statutory and security mandates to protect our borders. We do 
not oppose the US-VISIT system; the Department has worked hard over the 
last year to listen to the concerns of business and has made 
significant strides in adopting systems that attempt to balance the 
need for security and the continued facilitation of legitimate travel 
at our ports of entry. However, the U.S. Chamber and its members remain 
very concerned that, if the US-VISIT system is implemented improperly, 
we risk serious economic harm by impeding the billions of dollars in 
cross-border trade (particularly at our land borders) and deterring the 
millions of legitimate visitors to our country, who also spend billions 
of dollars within our borders.\3\
---------------------------------------------------------------------------
    \3\ The Chamber's concerns are no different from those expressed by 
Congress when it created the Department of Homeland Security. The 
Homeland Security Act of 2002 gave the new Department, among other 
things, the mission to: ``ensure that the overall economic security of 
the United States is not diminished by efforts, activities, and 
programs aimed at securing the homeland.'' Homeland Security Act of 
2002, Sec. 101(b)(1)(F). In addition, the responsibilities of the 
Directorate of Border and Transportation Security specifically state 
``In carrying out the foregoing responsibilities [relating to border 
and transportation security], ensuring the speedy, orderly, and 
efficient flow of lawful traffic and commerce.'' Homeland Security Act 
of 2002, Sec. 402(8).
---------------------------------------------------------------------------
    Before moving into the details and the numbers, however, I do wish 
to emphasize that there is more at stake here than dollars and cents. 
As a member of the DMIA Task Force, I was privileged to visit many of 
the border cities, north and south, and to meet with businesses, 
chambers of commerce, and individuals which will be directly impacted 
by US-VISIT. From these visits, it is clear that there is more involved 
here than just commerce. These communities are so intertwined with 
those across the border that a way of life is endangered, a recognition 
that not just jobs, but whole lives will be changed along with the 
fabric and social underpinnings of communities.
    These visits also revealed a skepticism of government, its 
promises, and its understanding of not only what is at stake under US-
VISIT, but the extreme practical difficulties that need to be dealt 
with in effectively processing the massive traffic at our borders, 
together with an unrealistic belief in the infallibility of technology. 
Technology in a laboratory operating under pristine conditions under 
the direction of a well-trained operator may work well in theory. But, 
will it be a solution that meets real life demands in outdoor, dusty, 
alternatively extremely cold and extremely hot conditions, staffed by 
personnel who will, despite their best intentions, encounter 
malfunctions and human error in the processing of millions of border 
crossers? \4\
---------------------------------------------------------------------------
    \4\ Technology is wonderful, but it will never be a complete 
panacea as we live in an imperfect world. As the Los Alamos technical 
support team noted in the DMIA Task Force's 2003 report to Congress, 
``Border operations goals are dauntingly diverse and, therefore, 
present unusually challenging opportunities that cannot be addressed 
solely through technological means.'' Data Management improvement Act 
Task Force Second Report to Congress, December 2003, Information 
Technology Consultant Analysis Summary Report, p. 32.
---------------------------------------------------------------------------
    Phrased differently, will the promises of the government be met 
when the rubber really meets the road? They may be, but there is a 
skepticism that you will hear today wondering if it is all possible, 
particularly under existing deadlines. And it is not an overstatement 
to say that there is literally no room for error.
    Lastly, there is a concern that the government will act too 
hastily, without sufficient planning and testing, for fear that any 
delay in meeting deadlines will result in criticisms that ``it is weak 
on security.'' We would hope that this would not be the case, but this 
fear, in a political environment, is understandable. However, the 
stakes are simply too high to allow this to occur and we would hope 
that the very real concerns over US-VISIT can be weighed in a 
bipartisan manner.
Air and Sea Ports
    We submitted comments to the Department of Homeland Security on its 
interim final rule implementing the US-VISIT requirements for visa 
travelers at air and sea ports on February 4, 2004. I believe the 
committee has copies of these comments, but I would briefly like to 
highlight some of our concerns regarding the air implementation here 
today.
    First, although major delays in international arrivals have not 
been reported from the implementation at US-VISIT at airports (we do 
not have information about the seaport implementation), we are 
extremely concerned about the capacity of the system to absorb 
additional travelers and additional data. This concern arises both on 
the technology and personnel, and infrastructure level.
    The US-VISIT program has so far been operational only during the 
lowest period for international travel to the United States during the 
year. As travel season picks up this spring and summer, we expect 
additional travelers to arrive requiring enrollment in US-VISIT. In 
addition, we understand that while the system currently is only 
required of persons holding visas entering the United States, the 
Department intends to eventually include all non-citizen entrants, with 
persons from the Visa Waiver Program countries next.\5\ To our 
knowledge, the Department has not demonstrated that its system can meet 
this extra load.
---------------------------------------------------------------------------
    \5\ `` `It is a problem with the VISIT system that visa waiver 
travelers are not enrolled,' [Assistant Secretary for border policy and 
planning at the Department of Homeland Security, Stewart Verdery] said. 
`We've been talking to [the visa waiver countries] about various 
options on how that can happen.' . . . [Verdery] said a policy that 
allows U.S. citizens traveling within the Western Hemisphere and 
citizens of Canada and other neighboring countries to enter the United 
States without showing passports could soon change.'' (Jeremy Torobin, 
``U.S. Proposes Stationing Passenger Screeners in Foreign Airports,'' 
CQ HOMELAND SECURITY, February 18, 2004). This would not be a small 
expansion of those covered as visa waiver admissions were more than 13 
million in 2002 (2002 Yearbook of Immigration Statistics, Department of 
Homeland Security, Office of Immigration Statistics, October 2003).
---------------------------------------------------------------------------
    We noted that Customs and Border Protection (CBP), as an insurance 
against delays, deployed additional personnel to airports in the 
initial days of the US-VISIT implementation. We also understand that 
some of this additional staffing has since been rescinded. If 
additional travelers during peak season or additional classes of 
travelers are required to be enrolled in the US-VISIT system, we would 
strongly urge CBP to devote adequate staff to ensure expeditious 
processing of all international travelers.
    We are also concerned about the technical capacity of the system to 
expeditiously process larger numbers of travelers. As more and more 
individuals are added to the US-VISIT biometric databases, in 
particular the ``watch list'' databases against which a traveler's 
biometrics are checked, the time required to return a ``match'' or 
``non-match'' is likely to increase, unless the capacity of the system 
is adequate. We do not know the specific technical capacities of the 
databases to support thousands of extensive searches conducted 
simultaneously at ports across the country and return accurate data, 
but the concern about the time taken for the database search and the 
accuracy of the data was expressed recently in testimony before the 
House Homeland Security Committee.\6\
---------------------------------------------------------------------------
    \6\ Transcript of Hearing before the Subcommittee on Infrastructure 
and Border Security of the Select Committee on Homeland Security, 
January 28, 2003, Dennis Carlton of the International Biometrics Group, 
LLC: ``As the size of the database gets bigger, the limited amount of 
data that can be acquired from the two fingerprints means that the 
system is going to start returning more and more false matches, because 
there just isn't sufficient data to find the matching record in the 
database.''
---------------------------------------------------------------------------
    We also have concerns about the proposed exit system for air and 
sea ports, which is still in the development phases. The current system 
of exit confirmation is the testing of self-service kiosks located near 
the passenger security checkpoints at airports. While the concept of a 
self-service checkout is appealing, and certainly is the least likely 
to cause disruption or additional backups for departing travelers, the 
lack of information provided to travelers and the seeming 
``voluntariness'' of the system may, in fact, reduce the effectiveness 
of the exit system in actually recording departures. The self-service 
kiosk also provides the traveler with no documentary evidence that he 
or she has complied with the exit verification, and, therefore, should 
any discrepancy arise, the traveler will be at a loss to prove 
compliance.
    Given these discrepancies, any method of exit verification must 
include clear directions to the traveler upon entry as to the need to 
``check out'' upon departure and the means by which to do so. Since 
initially the exit capability will not be available at all airports, we 
predict a great deal of confusion by travelers as to the exit 
requirement. We have already received questions via our American 
Chambers of Commerce overseas regarding whether travelers must exit 
from designated airports, and if they do not, how their exit will be 
registered and whether it will impact their ability to return to the 
United States in the future. A great deal of outreach to travelers (in 
multiple languages) must be made to avoid inadvertent noncompliance 
with any requirements for exit verification. We would strongly urge a 
period of time during which any negative impacts from failure to 
register are waived until it is clear that most travelers understand 
and are able to comply with the exit requirements.
Land Borders
    Of course, the largest challenge to the US-VISIT program remains 
the land borders. The circumstances of travel at land borders are 
monumentally different than at air and sea ports and the hurdles are 
immeasurably higher. The unique situation of the land borders was 
discussed extensively in the 2002 DMIA Task Force Report to Congress. 
The report stated:

        There is a marked difference between an inspection conducted at 
        an air or sea POE [port of entry] and one conducted at a land 
        border. Because of their varied status, divergent points of 
        origin, unfamiliarity with requirements and regulations, and 
        the increased risk to the U.S., most applicants for admission 
        at seaports and airports receive a comprehensive inspection 
        that includes mandatory data systems checks. In contrast, the 
        great majority of persons arriving at land border POEs are 
        residents of the border area who cross frequently and are 
        familiar with requirements concerning their entry into the U.S. 
        and receive an inspection that may include data systems checks. 
        The vast majority of all border crossings into the U.S. occur 
        at land border POEs. . . . Border traffic includes U.S. 
        citizens who leave and reenter the U.S. multiple times daily, 
        permanent residents who make multiple entries, and aliens who 
        hold non-immigrant visas or border crossing cards and commute 
        back and forth daily or weekly from Canada or Mexico. 
        Individuals can cross land borders as pedestrians, on bicycles, 
        in cars, rails, buses, trucks, or other vehicles.\7\
---------------------------------------------------------------------------
    \7\ Data Management Improvement Act Task Force First Annual Report 
to Congress, December 2002, p. 11.

    In fact 80% of all inspections take place at the land borders; over 
358 million inspections in 2002 were conducted at land borders, 
compared to 78 million at airports and 12 million at seaports.\8\ The 
land borders also see the crossing of $540 billion in surface trade 
between the United States, Canada and Mexico.\9\ As these facts and 
statistics reveal, the land borders represent a significantly larger 
challenge for the Department in order to ensure that the implementation 
of US-VISIT does not impede legitimate commerce and travel.
---------------------------------------------------------------------------
    \8\ Source: PAS G-22.1 INS Statistics, cited in Data Management 
Improvement Act Second Annual Report to Congress, December 2003, p. 15.
    \9\ Bureau of Transportation Statistics, U.S. Department of 
Transportation, North American Merchandise Trade by U.S. State and All 
Land Modes, 2002, www.bts.gov/ntda/tbscd/reports/annual02/state/us--
trade--2002--all.html.
---------------------------------------------------------------------------
    This testimony has given us the opportunity to reach out to the 
state and local chambers of commerce on the land borders to assess the 
concerns they have about the impact of the US-VISIT system to their 
communities. In the short period of time we had to conduct our survey, 
we found that the volume of trade and economic activity that is at risk 
at the border is enormous, as are the parallel concerns over the 
possible impact of US-VISIT. We have attached to this testimony 
documents, including studies of economic impact and resolutions by some 
of these local chambers of commerce, but I would like to include in my 
statement a variety of the facts and concerns cited, from both the 
Canadian and Mexican borders.
Texas
    The Laredo Port of Entry is the busiest commercial crossing on the 
U.S.-Mexico border, handling more than 9,000 trucks and over 900 rail 
cars each day. The Port of Laredo processed more than $32 million in 
exports and almost $47 million in imports from Mexico in 2002. In 
addition, the crossings in Laredo process almost 25,000 pedestrians and 
more than 43,000 passenger cars daily. According to the Laredo Chamber, 
``[A]ny delay, no matter how small per entry, multiplies into major 
congestion.'' \10\ The Laredo Chamber estimates that at least 50% of 
local business is directly or indirectly tied to cross-border trade and 
traffic.
---------------------------------------------------------------------------
    \10\ Response to survey by Miguel A. Conchas, President and CEO of 
the Laredo Chamber of Commerce, February 2004.
---------------------------------------------------------------------------
    A recent study by Dr. Michael Patrick, Director for the Texas 
Center for Border Economic and Enterprise Development at Texas A&M 
University concluded that a 1% decrease in border crossings would cost 
the Laredo economy $19 million in annual sales, and increase local 
unemployment by 7.2%. Sales taxes alone would decline by $133,000. 
Across all of the major Texas ports, Brownsville, McAllen, Laredo, and 
El Paso a 1% decline in crossings would cost the border region $76 
million in sales and 1,500 jobs, and decrease the Gross State Product 
by $1.2 billion.\11\
---------------------------------------------------------------------------
    \11\ Patrick, Dr. Michael, ``The Price of Security,'' Inlandport: 
The Laredo Chamber's Business and Trade Magazine, January/February 
2004.
---------------------------------------------------------------------------
    The Brownsville, Texas Chamber of Commerce reported an additional 
concern: Mexican citizens own approximately 50% of the resort 
condominiums at South Padre Island. Because the majority of Mexican 
border crossers hold so-called ``laser visas,'' Border Crossing Cards 
that also serve as visitor (``B-1/B-2'') visas that generally restrict 
their period of stay to 72 hours, the Chamber is extremely concerned 
that if border crossings become more difficult, many of these owners 
will divest of their real estate, costing the local economy millions of 
dollars. If the period of stay for ``laser visas'' is not extended, 
long border delays will limit the time that these vacationers can use 
their homes, making these investments less attractive.
    The El Paso international bridges handle almost one-fifth of all 
trade along the U.S.-Mexico border, more than $38 million in 2002. 
Local economists estimate between 15% and 20% of the city's retail 
sales are derived from Mexican nationals.
    According to the Greater San Antonio Chamber of Commerce, Mexican 
nationals purchased approximately $170 million in retail goods in San 
Antonio last year. Two major malls in the area report that as much as 
35% of all sales go to Mexican nationals. Further, according to Visa 
International, San Antonio has the second largest usage of their credit 
cards by Mexican nationals in the United States (second to McAllen), 
with 8.29% of total U.S. purchases.
    The Free Trade Alliance of San Antonio, the Greater San Antonio 
Chamber of Commerce and the communities of Brownsville, McAllen, 
Laredo, Del Rio, and El Paso have agreed to work together to address 
these issues. One common goal is to obtain a change to the limitation 
on the ``laser visa'' to allow Mexican nationals to stay for longer 
periods of time and to be exempt from US-VISIT enrollment, since they 
have already submitted to extensive background checks to obtain the 
cards, which contain the biometric identifiers required under the US-
VISIT system.
Washington
    Whatcom County, Washington has four border crossings, Peace Arch, 
Pacific Highway, Lynden, and Sumas, accounting for more than 2 million 
crossings per quarter. The region had almost a one-third drop in 
crossings since the fall of 2002. While some of this continued the 
downward trend since the Canadian dollar weakened in the 1990s, it is 
worth noting that border activity has not increased in recent years as 
the Canadian dollar has strengthened.
    A survey conducted by Western Washington University in the summer 
of 2003 revealed that Canadian shoppers make approximately 10% of all 
retail sales in Whatcom County, estimated at over $35 million. In 2002 
the total trading relationship between Washington and Canada was nearly 
$11.3 billion. The Blaine, Washington border crossings are the sixth 
largest crossing in value of trade on the Canadian border at $9.9 
billion.
    According to Department estimates, an additional nine seconds of 
inspection time will result in over 700 additional minutes of 
cumulative vehicle wait time at the Blaine crossing.\12\ Delays at the 
border after September 11 and during periods of heightened security 
alert have caused Canadian residents, particularly in the Vancouver 
metropolitan area, to believe that border crossing is a hassle. There 
is discussion in British Columbia of running commercials on Vancouver 
area television encouraging Canadians to return north. Canadian press 
has reported stories about US-VISIT expressing great concern that it 
will cause additional delays when implemented. The local chamber of 
commerce in Bellingham, Washington reports hearing very little about 
how the Department is intending to implement US-VISIT and is very eager 
for local community outreach.
---------------------------------------------------------------------------
    \12\ Department of Homeland Security, US-VISIT Industry Day 
Briefing, July 2003, http://www.dhs.gov/interweb/assetlibrary/USVISIT--
IndustryConfBrief.pdf.
---------------------------------------------------------------------------
Arizona
    The Yuma County, Arizona chamber has concerns about the impact of 
US-VISIT on the more than 20,000 agricultural workers that visit daily 
at the San Luis Port of Entry during the agricultural season. Yuma is a 
county of 170,000 people in the southwest of the state called ``the 
lettuce capital of the country'' and depends on this agricultural 
workforce for its more than $500 million agricultural industry. 
According to Ken Rosevear, Executive Director of the Yuma Chamber of 
Commerce:

        It is extremely important that [these workers] are able to 
        cross within a short window of time to be able to coordinate 
        with the busses that transport them to their work areas. These 
        areas may be as far as 50 miles and require another two hours 
        of travel. Waiting times at the border during the season can 
        reach 2+ hours and that delay can cause shortages for that 
        day's labor force in the fields. . . . [T]hese delays can cost 
        millions of dollars in lost revenue per day.\13\
---------------------------------------------------------------------------
    \13\ Response to survey of border chambers, February 2004.

    According to the Yuma chamber, a new port of entry at San Luis East 
is in the early stages of development because of existing congestion at 
the port of entry, including a new highway to run from the port to 
Interstate 8. According to Mr. Rosevear, ``As far as ability to absorb 
any further delay in either commercial, auto, or pedestrian traffic, 
absolutely NONE. This will bring total gridlock to our current port.'' 
\14\
---------------------------------------------------------------------------
    \14\ Ibid.
---------------------------------------------------------------------------
    The Douglas, Arizona Chamber of Commerce reports similar concerns. 
Douglas estimates that more than 60% of its retail volume is from 
Mexican customers, and it underpins the entire local economy. Currently 
crossing times coming into the United States range from 20 minutes to 2 
hours, with lines backing up more than 10 blocks into the town. This 
traffic backup creates air pollution problems. The regular crossers 
include employees of the more than 26 maquiladora plants across the 
border, and farm workers. These workers regularly cross the border each 
way daily, and sometimes several times.
    The Nogales Chamber of Commerce reports that 80% to 90% of business 
in the town is tied to the border. The largest employers include the 
more than 300 maquiladora plants, produce companies, government 
agencies (most tied to the border) and merchants, who estimate that 80% 
of their revenue is from Mexican customers. Crossing times at the 
Nogales Port of Entry range from 20 to 40 minutes on average with 
longer waits during morning and afternoon commute times. According to 
Department estimates, a nine second increase in inspection times at the 
Nogales Port of Entry would result in an additional 500 minutes of 
vehicle wait time.\15\ Of significance is the fact that the Nogales 
Chamber was not aware of US-VISIT or its pending implementation until 
informed by the U.S. Chamber. Apparently, there has been no outreach by 
the border agencies to the local Nogales business community.
---------------------------------------------------------------------------
    \15\ Department of Homeland Security, US-VISIT Industry Day 
Briefing, July 2003, http://www.dhs.gov/interweb/assetlibrary/USVISIT--
IndustryConfBrief.pdf.
---------------------------------------------------------------------------
New York
    The Watertown Chamber of Commerce recently conducted a study of the 
Thousand Islands bridge crossing. The Thousand Islands crossing, which 
connects Interstate 81 to Highway 404 in Ontario is one of the fastest 
growing travel routes between Ontario, Quebec and the U.S. southern and 
mid-Atlantic states and cities, handling more than 2 million passenger 
cars per year, andforecasting 80% increase in traffic in the next 30 
years. What makes this crossing unusual is that almost two-thirds of 
crossings are for recreation, and 63% of the visits are for more than 
two nights. Commuter crossings dominate the other major ports of entry 
on the U.S.-Canada border. As a major gateway between the recreational 
areas of upstate New York and the ``cottage'' areas of Ontario and 
Quebec, Thousand Islands is potentially more susceptible to declines in 
crossings due to delays, as vacationers may choose to spend their 
holidays on their own side of the border. The crossing also 
accommodates more than 1,500 commercial vehicles daily, comprising $29 
million in trade per day, with more than 165,000 jobs in the U.S. and 
Canada dependent on this trade.
    According to the Plattsburgh-North Country Chamber of Commerce, the 
total economic impact of Canada on the Clinton County, New York area, 
surrounding the Champlain/LaColle border crossing, is more than $1.3 
billion, including more than 14% of all county jobs, almost $300 
million in annual visitor spending on tourism and retail, and $8.7 
million in county sales tax generated. The Champlain/LaColle border 
crossing is the only crossing in the eastern half of the continent that 
does not cross water, and is currently undergoing a major expansion. 
Yet, still, at the height of the summer vacation season, backups at 
this crossing can be over two hours.

California
    The San Ysidro Port of Entry in California is the busiest border 
crossing in the world, processing over 40 million passengers and 15 
million trucks and busses annually over the past three years. Its 
sister port at Otay Mesa, primarily a commercial port, handles more 
than $20 billion in two-way surface trade annually, averaging more than 
5 million vehicles and 11 million people crossing annually in the last 
five years.
    According to the San Ysidro Chamber of Commerce, more than 60,000 
people cross the border daily, and two-thirds of this volume are 
regular crossers, presumably workers. Inbound waits for crossing are 
often more than two hours, and the chamber estimates that if each car 
is stopped only 10 seconds longer more than nine hours of delay could 
result. In the days following September 11, businesses along Main 
Street in San Ysidro reported more than 90% lost business. Further, 
there is no infrastructure in place for exit inspections, and no room 
for expansion; the town of Tijuana starts literally adjacent to the 
port of entry. Even so, outbound traffic is often backed up more than 
one hour, even though Mexican customs usually waives most traffic 
through.
    At Otay Mesa, the local chamber of commerce estimates that 95% of 
business in the town is generated by cross-border trade, both directly 
and indirectly, much of it the maquila industries that operate 
facilities on both sides of the border, including Sanyo, Honeywell, 
Hitachi, Parker Hannifin, and others. One of the main appeals of the 
area is the availability of a skilled, legal workforce that enters from 
Tijuana daily.
    The El Centro Chamber of Commerce, located just north of the 
Calexico border crossing, is concerned with the impact on its retail 
economy. El Centro has a population of about 150,000, but the adjoining 
town of Mexicali has more than 500,000 ``laser visa'' holders. The 
local Costco and Wal-Mart retail outlets depend on this cross-border 
shopping, and ground has recently been broken on a large new regional 
mall with numerous national retailers to serve this Mexican market. 
Further, businesses in El Centro and farms throughout the Imperial 
Valley depend on Mexican labor. The El Centro chamber expressed 
concerns similar to the Yuma chamber of the impact of US-VISIT on the 
entry of agricultural workers to this vibrant growing center in 
California.
    The Greater San Diego Chamber of Commerce reports that total sales 
to Mexican citizens represented $3 billion in retail sales for San 
Diego in 2000 and 2001. After 9/11, increased border security resulted 
in decreases in sales of up to 80% for several months.
    The Greater San Diego Chamber of Commerce, along with the City of 
Chula Vista, the City of San Diego, the San Diego Association of 
Governments (SANDAG), San Diego Dialogue, Sand Diego Regional Economic 
Development Corporation, the San Diego World Trade Center, San Ysidro 
Business Association, San Ysidro Chamber of Commerce, and the South San 
Diego Economic Development Council, has formed the San Diego Alliance 
for Border Efficiency. One of its goals is to mitigate the impact of 
US-VISIT on southbound border congestion by ensuring the development of 
necessary infrastructure prior to implementation.

Michigan
    The Detroit/Windsor border crossings account for more than 27 
million inspections annually and almost $100 billion in trade. These 
crossings account for almost 40% of all U.S.-Canada trade, with the 
Ambassador Bridge being the single busiest border crossing along the 
northern border, handling 25% of U.S.-Canada trade itself. The 
automotive industry alone accounts for more than $300 million of this 
daily trade. More than 160,000 jobs in Michigan and 1.8 million jobs 
nationwide are tied to the export of manufactured goods to Canada. 
Thirty-eight states and Puerto Rico have Canada as their primary 
trading partner, and half of U.S. exports to Canada are produced in 14 
states. Of the passenger crossings, the majority of noncommercial 
crossings are locals. More than 10,000 people cross the border in 
Michigan to work, including more than 1,600 nurses in the city of 
Detroit. One hospital estimates that 15% of its nursing staff, and 20% 
of its critical care nursing staff, cross the border from Canada.\16\
---------------------------------------------------------------------------
    \16\ Testimony of Dan Cherrin, former Director of Federal Public 
Policy of the Detroit Regional Chamber before the Standing Committee on 
Industry, Science and Technology of the Parliament of Canada, November 
1, 2001.
---------------------------------------------------------------------------
    The efficiency of these border crossings is extremely fragile. 
Following the September 11 attacks, additional security at the Detroit 
border crossings resulted in 20 mile delays on the Canadian side, 
taking five hours to enter the U.S. However, delays as little as 20 
minutes for just-in-time parts deliveries can result in assembly line 
shutdowns, increased costs to reroute trucks or ship cargo by rail, 
barge, or air, and create emergency inventory stockpiles (the exact 
costs that just-in-time was supposed to replace).
    In a June 1998 Senate Judiciary Report on the original entry-exit 
system proposed by Section 110 of the Illegal Immigration Reform and 
Immigrant Responsibility Act of 1996, Dan Stamper of the Detroit 
International Bridge Company is cited as estimating that additional 
entry and exit procedures that would add only 30 seconds per vehicle 
(for only half of the daily crossings) would still add 3,750 minutes of 
extra processing time per day. Since there are only 1,440 minutes in a 
day, this effect would essentially shut down the border. In a February 
26, 2004 letter to the Detroit Regional Chamber, Neal Belitsky, 
Executive Vice President of the Detroit & Canada Tunnel Corporation 
(which operates the Detroit-Windsor Tunnel), stated:

        Our facility is typical of those at the other major crossings 
        between Michigan or New York and Ontario. The Bridge & Tunnel 
        Operator's Association (BTOA) represents these crossings. 
        Plazas were not designed for today's traffic volumes or the 
        post 9-11 environment. . . . We are concerned that the system 
        may not be fully field tested prior to installation. This could 
        lead to significant disruptions in cross border traffic and 
        trade. Has an assessment been completed that will indicate both 
        anticipated volumes and risk?'' \17\
---------------------------------------------------------------------------
    \17\ Letter to Claudia Berry, Public Affairs Group, Detroit 
Regional Chamber of Commerce, from Neal Belitsky, Executive Vice 
President, Detroit and Canada Tunnel Corporation, February 26, 2004.

These Concerns Are Not Limited to Border Communities
    While the above statistics, we believe, are compelling in terms of 
painting a realistic picture of what is at stake in our border 
communities if US-VISIT results in increased delays, we realize that it 
may be deceptively easy to dismiss all of this as a ``border issue,'' 
which perhaps only the members of Congress from northern and southern 
border regions need be concerned about. Unfortunately, this 
misimpression characterized much of the debate surrounding reform of 
the original Section 110.
    This would be a mistake. While we have not yet been able to 
quantify what the ripple effect increased border delays might have on 
downstream commerce and throughout the American economy far beyond our 
ports of entry, it can hardly be gainsaid that we do live in a nation 
in which virtually all parts of the economy are interdependent and that 
an adverse impact on one part will, like falling dominoes, adversely 
impact others. Perhaps the relatively recent 2002 West Coast port 
strike most vividly makes this point. There, a work slow down, as a 
result of a complex labor-management collective bargaining dispute at 
29 West Coast shipping ports, delayed about one billion dollars in 
daily shipments. The adverse economic impacts of the delays rolled 
through the American economy, resulting in President Bush invoking the 
rarely used national emergency dispute procedures of the National Labor 
Relations Act. This one example alone demonstrates the obvious: that 
the concerns surrounding US-VISIT should be considered national in 
character.

Conclusion
    As can be seen from the previous information, there is a great deal 
of concern among the communities along the border regarding the 
implementation of additional border controls. The economic activity 
dependent on the border in these communities is significant, and the 
trade and travel volumes also are important for states in the interior. 
Canada is the number one trading partner of the majority of states in 
the United States. Canadian tourism contributes $8 billion to the U.S. 
economy. U.S.-Mexico trade amounts to more than $200 billion and more 
than 10.8 million Mexicans visit the U.S. annually.
    As stated in our comments to the Department of Homeland Security, 
we are concerned that the proposed implementation plan for US-VISIT at 
land borders, as outlined in the Department's Request for Proposal for 
a Prime Contractor for the US-VISIT program and as outlined today by 
Undersecretary Hutchinson, while taking into account some of the 
concerns of the business community previously expressed, will not be 
adequate for the challenges of the land border environment.
    As the government has testified before Congress, initial 
implementation at the land borders is planned to be limited-applying 
only to those holding visas, and conducted away from the primary 
vehicle and pedestrian inspection lanes in the secondary inspection 
facilities. The exit portion of the system is envisioned to be 
accomplished via radio frequency cards and readers in exit lanes. 
However limited this implementation may be, it may still result in 
additional delays to important border crossers--such as the thousands 
of agricultural workers that cross the Mexican border, or professional 
commuters at the Canadian border. Since many of these individuals cross 
on a daily basis, the Department must consider whether daily 
registration in the US-VISIT system is necessary. We have also 
expressed concerns regarding the capacity for even this limited 
implementation at the secondary inspection facilities at land borders. 
Finally, there is no assurance that this described implementation will 
in fact be that which is actually deployed in December 2004, and it 
seems likely that the universe of individuals covered will ultimately 
be significantly expanded.
    In summary, although the Department has taken the legitimate 
concerns of business and local communities regarding the implementation 
into account, there is a great deal of skepticism that the proposed 
system will not impede legitimate travel and trade. We have heard 
repeatedly from our local chamber affiliates that there has been a lack 
of outreach by Department officials, and many questions regarding the 
proposed system have yet to be answered.
    Thus we urge the Department and Congress to provide additional time 
for implementation of the land border portion of the US-VISIT system, 
unless the government can publicly and thoroughly demonstrate, in 
advance and with thorough testing under realistic conditions, that 
whatever entry-exit system it may impose can be implemented with no 
additional delays at the borders.
    I wish to thank you for this opportunity to share the views of the 
U.S. Chamber of Commerce.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
